<html>
<title> - ENSURING THE U.S. INTELLIGENCE COMMUNITY SUPPORTS HOMELAND DEFENSE AND DEPARTMENTAL NEEDS</title>
<body><pre>[Senate Hearing 108-724]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-724

ENSURING THE U.S. INTELLIGENCE COMMUNITY SUPPORTS HOMELAND DEFENSE AND 
                           DEPARTMENTAL NEEDS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs


                      U.S. GOVERNMENT PRINTING OFFICE
97-044 PDF                 WASHINGTON : 2004
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
        Michael Stern, Deputy Staff Director for Investigations
                David Kass, Chief Investigative Counsel
                 Jane Alonso, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Beth M. Grossman, Minority Counsel
            Michael L. Alexander, Professional Staff Member
          Andrew Weinschenk, Fellow, U.S. Department of State
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Stevens..............................................     5
    Senator Levin................................................    22
    Senator Coleman..............................................    24
    Senator Pryor................................................    26
    Senator Carper...............................................    29
    Senator Durbin...............................................    32
    Senator Dayton...............................................    34
Also present:
    Senator Warner...............................................    38

                               WITNESSES
                       Monday, September 13, 2004

Hon. Colin L. Powell, Secretary, Department of State.............     5
Hon. Tom Ridge, Secretary, Department of Homeland Security.......    12

                     Alphabetical List of Witnesses

Powell, Hon. Colin L.:
    Testimony....................................................     5
    Prepared Statement...........................................    43
Ridge, Hon. Tom:
    Testimony....................................................    12
    Prepared Statement...........................................    49

                                APPENDIX

Questions and Responses for the Record from:
    Secretary Powell.............................................    57

 
ENSURING THE U.S. INTELLIGENCE COMMUNITY SUPPORTS HOMELAND DEFENSE AND 
                           DEPARTMENTAL NEEDS

                              ----------                              


                       MONDAY, SEPTEMBER 13, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SH-216 Hart Senate Office Building, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Stevens, Levin, 
Coleman, Pryor, Carper, Durbin, and Dayton.
    Also Present: Senator Warner.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. This morning, the Committee on Governmental 
Affairs  holds  its  seventh  hearing  on  the  recommendations 
 of  the 9/11 Commission to reform America's intelligence 
community. I commend my colleagues for their dedication to the 
vital mission assigned to this Committee, and I welcome the 
very distinguished witnesses that we have this morning, whose 
testimony will help guide us in this critical task.
    We meet today after a somber weekend of remembrance. The 
anniversary of the September 11, 2001, terrorist attacks will 
forever be a day of tears and prayers for the victims and their 
families. On this third anniversary, tears and prayers were 
offered as well for the victims of terrorism in Russia and for 
their families. Now, as 3 years ago, the grief of people of 
good will knows no borders.
    We, in government, have an obligation to do more than 
grieve. The massacre of the innocent school children in Beslan 
and of innocents in Bali, Istanbul, Madrid, Jerusalem, Jakarta, 
and so many other places, reminds us that terrorism has both a 
global reach and an unlimited capacity for cruelty.
    We in government have an obligation to dedicate ourselves 
to the defeat of this enemy. The role of this Committee in this 
effort is to transform an intelligence structure built for the 
Cold War into one that meets the demands of the war against 
terrorism. Thanks to the hard work of this Committee and the 
many expert witnesses we have heard from as well as the efforts 
of the administration and other committees, this new structure 
is within our grasp. A recent news report put it this way: 
``The White House, both chambers of Congress, and members of 
both political parties are beginning to sing from the same 
hymnal on overhauling the nation's intelligence agencies, but 
they are not all in the same key yet.''
    To continue the musical metaphor, I would add that although 
we are not perfectly in tune, neither are we tone deaf. We know 
that the American people expect a lot of us, and we know what 
we must do to meet those expectations. We know that the stakes 
are high, and we know that reform cannot wait. With each 
hearing, significant points of consensus are emerging. The need 
for a national intelligence director with sufficient authority 
to do the job effectively becomes more and more evident. The 
power of the National Intelligence Director (NID) position 
cannot inhibit the competitive analysis advantage that we gain 
from a vigorous intelligence community. Virtually every witness 
has endorsed a national counterterrorism center that will 
integrate our knowledge and coordinate our fight against global 
terrorism. Intelligence reform should enhance, not detract, 
from military intelligence and readiness.
    There is also widespread agreement that the complex threats 
we face today and into the future require a new configuration 
that enhances information sharing. Larry Kindsvater, the deputy 
director of central intelligence, has described the situation 
this way: ``No one and no organizational entity is actually 
responsible for bringing together in a unified manner the 
entire intelligence community's collection and analytical 
capabilities to go against individual national security 
missions and threats such as terrorism, North Korea, the 
proliferation of weapons of mass destruction and China.''
    Against that array of threats, we need unity, but we must 
also preserve the competitive analysis of the 15 members of our 
intelligence community. Our intelligence network needs a hub, 
but the Nation does not need a new bureaucracy. This hub, which 
I call the National Intelligence Authority, must be crafted so 
that we gain coordination, cooperation, and communication, and 
lose only our vulnerability.
    As the title of this hearing indicates, the reform we 
undertake must be designed to meet the needs of both consumers 
and producers of intelligence. I am pleased that we have here 
today the extraordinary leaders of two such departments, 
Homeland Security Secretary Tom Ridge and Secretary of State 
Colin Powell. America has been fortunate indeed to have two 
such outstanding leaders in the war against terrorism.
    As a nation, we should recognize how far we have come since 
September 11, 2001. The FBI, CIA and other intelligence 
agencies have undergone significant internal restructuring. We 
have created the Department of Homeland Security and the 
Terrorist Threat Integration Center. We have expanded the Joint 
Terrorism Task Force Program as well as the resources available 
to our first responders. The President, Members of Congress 
and, of course, members and staff of the 9/11 Commission have 
enhanced the cause of intelligence reform and put us on the 
path of continued progress.
    Many details still must be resolved before the emerging 
consensus can be turned into real reform, but each day, we are 
advancing the goal. We know from the devastation at ground zero 
to the slaughter in Russia that our enemy is capable of 
anything. Surely, we are capable of enacting true reform that 
will help to make us safer.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman.
    In regard to that hymnal you referred to, I think probably 
the best thing I can say is amen, sister. [Laughter.]
    I think we are singing from the same hymnal, not just you 
and me but most of us who have been focused on the response to 
the 9/11 Commission's Report, and I appreciate it very much. I 
think that is encouraging. This is our seventh full Committee 
hearing since the 9/11 Commission reported at the end of July, 
and just as you said, I agree with you that not only have we 
proceeded deliberatively, but I believe that a consensus is 
emerging based not only on the Commission's report but also on 
the testimony that we have heard, that we need a national 
intelligence director with strong budget and personnel 
authority to make sure our enormous investment in intelligence 
gives us the national security we need and second that we need 
the National Counterterrorism Center and other centers to 
achieve something like the same jointness that is now a reality 
in our military, among our military forces.
    Those are critical points of agreement that we have as we 
go forward, and I must say last week, the President added to 
the momentum and certainly deepened and broadened the consensus 
by, in fact, calling for a national intelligence director along 
the lines recommended by the Commission and similar to the 
consensus that I think is emerging here. ``The President 
intends to give the NID full budget authority over the National 
Foreign Intelligence Program appropriation and the management 
tools necessary to successfully oversee the Intelligence 
Community.'' That was a very significant step on the road to 
genuine intelligence reform.
    As we came back into session last week after the August 
break, we were a lot further ahead than most people ever 
thought we would be, not just in this Committee but in both 
houses; had many more hearings and much more deliberation than 
people thought. There are now those who are skeptical, as they 
were when the Commission issued its report about what we would 
do in August, that we will not be able to get a bill before the 
Senate before we break. I am convinced we will.
    There are those who say OK, you will get it through the 
Senate, but they will never get a bill through the House, and 
you will never conference it before we break for the campaigns. 
I am convinced that we will. And I think one of the reasons we 
will is that we are just going to keep going straight ahead, as 
you have directed and led this Committee to do, to achieve that 
end.
    I am very grateful to Secretary Ridge, Secretary Powell, 
that they are giving us their time and expertise this morning. 
Both of these departments, the Department of Homeland Security 
and the Department of State, will have obviously an important 
impact on our intelligence system and are also critical 
consumers of intelligence produced by the system. Each is 
affected in one way or another by the report of the Commission 
and by what we do.
    I look forward to hearing from Secretary Ridge, 
particularly about the Information Analysis and Infrastructure 
Protection Directorate that has grown up under his new 
department and how it has related to the so-called TTIC and how 
he expects Homeland Security particularly to benefit from the 
creation of the National Counterterrorism Center.
    The Commission also envisioned the Department of Homeland 
Security playing an important role in a new information-sharing 
network by ensuring among other things that State and local 
governments and the private sector are brought into the 
network, and that is a unique function that the Department of 
Homeland Security has begun to play, will play, and I think is 
very important as we talk about reforming our intelligence 
structures. The Commission also recommends that the Department 
of Homeland Security lead the effort to design a comprehensive 
screening system to improve border security, set standards for 
issuing birth certificates, driver's licenses, and other forms 
of identification and also screen all passengers for 
explosives. These are important and in some sense still 
controversial suggestions. I am generally in support of them, 
and I look forward to hearing what the Secretary has to say 
about them as well.
    Secretary Powell, we are grateful that you are here. The 
Bureau of Intelligence and Research, INR, within the State 
Department is clearly an important part of the intelligence 
community with a reputation for real quality intelligence 
analysis. In the 9/11 Commission's assessment, it is one of the 
bright spots. It comes out with some of the higher marks in the 
intelligence community. The Commission has, interestingly, 
recommended that the budget of INR, as you know, not be put 
under the new national intelligence director. I would like to 
hear your reaction to that and also, how do we make sure, if 
that is the case, that INR is at the table? It would be a 
strange result if this intelligence office, which has done 
well, is not at the table to argue as a consensus about a 
particular case that is being formed.
    Finally, we have naturally been focused on the threat of 
terrorism and how to beef up our intelligence with regard to 
terrorism. But America relies on intelligence for a lot more 
than the war on terrorism, though it is our focus today. The 
news from North Korea reminds us of how important intelligence 
is outside of the specific ambit of terrorist threats to us, 
and I want to ask you in that regard to assess to the best of 
your ability the impact of the kind of intelligence reform that 
we are talking about on the intelligence that you need as 
Secretary of State to make the judgments you need to make about 
a situation as complicated and as critical as the question of 
whether North Korea not only has nuclear capacity but whether 
it has exploded a nuclear weapon.
    So these are critical questions which you two uniquely can 
assist us in reaching reasonable judgments on. I thank you for 
being here, and again, I thank you, Madam Chairman, for setting 
the pace that you have for the Committee with the purpose that 
we have had that I am confident will lead us to the reform that 
we need. Thank you.
    Chairman Collins. Thank you, Senator Lieberman.
    I would now like to call on our first witness, Secretary 
Powell. Again, thank you both for being here today. I know you 
are extraordinarily busy.
    Senator Stevens. I hope my friend will not object, but I 
would like to just make one comment, if I may.
    Chairman Collins. Absolutely.
    Senator Stevens. And that is as Chairman of the 
Appropriations Committee--incidentally, I am a monotone, so I 
am not sure I am on the same page of music that you are looking 
at yet. [Laughter.]

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. First, let me tell you as a former 
Chairman on this Committee, I think you have done a grand job 
on these hearings so far. But the Appropriations Committee next 
week will start a series of hearings. I think there are people 
who have not been heard yet, and I intend to have the 
Appropriations Committee be a forum to listen to those people 
who are really on the edge of what you are doing and have some 
comments, I think, based upon experience that we should listen 
to from the intelligence community. Those will start on 
September 21.
    Chairman Collins. Thank you, Senator. We appreciate your 
expertise and your advice as we proceed in this important task. 
You certainly have many years of experience that you can draw 
on, and we look forward to continuing to work closely with you.
    Senator Stevens. I will try to learn how to sing.
    Chairman Collins. We have signed you up for lessons.
    Secretary Powell, please proceed.

TESTIMONY OF HON. COLIN L. POWELL,\1\ SECRETARY, DEPARTMENT OF 
                             STATE

    Secretary Powell. Thank you very much, Madam Chairman. I do 
have a prepared statement for the record, which I would like to 
offer and then provide a shorter statement and oral 
presentation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Powell appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    Chairman Collins. It will be included in full in the 
record.
    Secretary Powell. Thank you very much, Madam Chairman, 
Senator Lieberman, and Members of the Committee. I am pleased 
to be here today with my colleague, Tom Ridge. I must say I am 
taken aback by all these musical metaphors. You obviously have 
not seen my performances on the international stage around the 
world. [Laughter.]
    But I am pleased to have this opportunity to share with you 
my thoughts on the reform of the intelligence community.
    I have been a consumer of intelligence in one way or 
another throughout my 40-plus years of public service. From the 
tactical level on the battlefield as a second lieutenant to the 
highest levels of the military, as Chairman of the Joint Chiefs 
of Staff, National Security Advisor and now as Secretary of 
State, and I hope that I can offer some helpful insights from 
the perspective of the conduct of America's foreign policy.
    Before I start, though, let me add my thanks to those of 
millions of other Americans, to the members of the 9/11 
Commission for their careful examination of what went wrong 
during the run-up to that terrible day 3 years ago and for 
their thoughtful recommendations to ensure that nothing like 
that can ever happen again. And let me also thank you, Madam 
Chairman, and the Members of the Committee for the dedication 
that you have applied to this task over the last several weeks, 
and I hope that you are able to complete your work, as Senator 
Lieberman said, before adjournment.
    Madam Chairman, let me say at the outset that I fully 
support President Bush's proposals on intelligence reform. A 
strong national intelligence director is essential. That 
strength is gained primarily by giving the NID real budget 
authority. In that regard, the President's proposal will give 
the NID the authority to determine the budgets for agencies 
that are part of the National Foreign Intelligence Program. As 
recommended by the 9/11 Commission, the NID will receive funds 
appropriated for the NFIP, and he or she will have the 
authority to apportion those funds among the NFIP agencies.
    The NID will also have the authority to transfer funds and 
to reprogram funds within the NFIP as well as approval 
authority for transfers into or out of the NFIP. The President 
has empowered the NID in other ways as well. For example, in 
addition to the budget authority I have just described, the NID 
must concur in the appointment of heads of intelligence 
community agencies if those appointments are made by Department 
heads, and if the appointments are made by the President, the 
recommendation to the President must be accompanied by the 
NID's recommendation.
    Additionally, the NID will have authority to establish 
intelligence requirements and priorities and manage collection 
tasking both inside and outside the country, also to resolve 
conflicts among collection responsibilities and also to ensure 
full and prompt information sharing, to include making sure 
that all agencies have access to all intelligence available and 
needed to carry out their missions and to perform independent 
analysis and finally to establish personnel administrative and 
security programs for the intelligence community.
    The President's proposal does not adopt the 9/11 
Commission's recommendation that the NID have deputies from 
DOD, CIA and the FBI. President Bush believes that we need 
clear lines of authority, and to have in the structure people 
who have to report to two different masters would not 
contribute to clarity of responsibility and accountability. The 
President's proposal does put the National Counterterrorism 
Center under the supervision of the NID; moreover, if any other 
such centers were judged necessary, those, too, would fall 
under the NID. For example, the President has requested that 
the Robb-Silverman Commission look at the possibility of a 
weapons of mass destruction center.
    To give the NID the sort of independent help that he will 
require to do his job, the President's proposal includes a 
Cabinet-level Joint Intelligence Community Council, upon which 
I and my national security colleagues would sit. This council 
would advise the NID on setting requirements, on financial 
management, to include budget development; on establishing 
uniform policies and on monitoring and evaluating the overall 
performance of the intelligence community. Perhaps later, Madam 
Chairman, as we discussed before the hearing, I can give you a 
little experience of what the Joint Chiefs of Staff are like 
and how they operate and how there are some parallels to how 
this council might operate.
    Finally, the President's proposal would require important 
changes to the 1947 National Security Act, changes I know that 
members of this Committee will be looking at carefully. An 
example of such a change would be the plan to establish the new 
position of the Director at the CIA and to define the 
responsibilities of that agency, responsibilities that will 
continue to include the authority for covert action and the 
need to lead in the area of human collection.
    Madam Chairman, I know that this Committee will look 
closely at the President's proposal. I have been in government 
long enough to know also that you and the other Members of 
Congress will make changes to the President's proposal. Of 
course, that is your priority; nay, it is your duty as the 
people's representatives. As you and the other Members of this 
Committee and the Congress are reviewing the President's 
proposal, and as you are considering what the final product of 
your very important deliberations will actually be, I would ask 
that you take into account the unique requirements of the 
Secretary of State, the Department of State and of the conduct 
of foreign policy for which I am responsible to the President 
and to the American people.
    Let me give you some insights, if I may, on why the 
Secretary of State's needs are somewhat unique but why they, 
too, would be well-served by such reform as President Bush has 
proposed. Diplomacy is both offensive and defensive in its 
application. At the State Department, we are the spear point 
for advancing America's interests around the globe. We are also 
a first line of defense against threats from abroad. As such, 
our efforts constitute a critical component of national 
security.
    Our efforts must not be seen as an afterthought to be 
serviced by the intelligence community only if it can spare 
priorities and resources from other priorities which they 
consider higher. Madam Chairman, the old adage that an ounce of 
prevention is worth a pound of cure describes what I am 
implying to a tee. Our needs are as great as any other consumer 
of intelligence in the U.S. Government. In that regard, there 
are a few critical considerations that should be borne in mind 
as we, the administration and the Congress, design an 
intelligence establishment for the 21st Century.
    First, as Secretary of State, I need global coverage all 
the time. This does not mean that the intelligence community 
should cover Chad as robustly as it covers North Korea, but it 
does mean that I need intelligence on developments in all 
countries and regions. I need it to provide information and 
insight to our ambassadors around the world and to those of us 
in Washington. We all must deal on a daily basis with problems 
that range from the impact of instability in Venezuela or 
Nigeria on world oil prices to ethnic, religious, regional, and 
political conditions that challenge our values, spawn 
alienation and terrorists, threaten governments friendly to the 
United States and impede or facilitate the export of American 
products.
    Many times in my career, I have found myself dealing with a 
crisis in a country that was on no one's priority list until 
the day the crisis hit. That is why we have to think 
comprehensively and not set aside any part of the world or any 
country of the world as not being of interest to us.
    Second, as Secretary of State, I need expert judgments on 
what is likely to happen and not just an extrapolation of 
worst-case scenarios. The intelligence community we now have 
provides fantastic support to the military, both planners in 
Washington and commanders in the field, and it should do that. 
In many cases, its organization, priorities, allocation of 
resources and mindset have evolved specifically to support 
military planning and operations. Worst-case scenarios are 
prudent and are often sufficient for my colleagues in the 
military, and I certainly remember the days when I got these 
kinds of analyses, and they were so useful, but they are 
generally not quite as useful to the conduct of diplomacy.
    They are not because in the world of diplomacy I need to 
know what is most likely to happen as opposed to just the worst 
case. What will influence the course of events? What will it 
take to change the course of events? And how much diplomatic 
capital or other blandishments will it take to achieve the 
foreign policy goals of the President in specific 
circumstances? What usually happens or what you must deal with 
is something often far short of the worst case.
    An old rule that I have used with my intelligence officers 
over the years whether in the military or now in the State 
Department goes like this: Tell me what you know, tell me what 
you do not know, and then, based on what you really know and 
what you really do not know, tell me what you think is most 
likely to happen. And there is an extension of that rule with 
my intelligence officers: I will hold you accountable to what 
you tell me is a fact, and I will hold you accountable for what 
you tell me is not going to happen because you have the facts 
on that, or you do not know what is going to happen, or you 
know what your body of ignorance is, and you tell me what that 
is.
    Now, when you tell me what is most likely to happen, then 
I, as the policy maker, have to make a judgment as to whether I 
act on that, and I will not hold you accountable for it, 
because that is a judgment, and judgments of this kind are made 
by policy makers, not by intelligence experts. And I think this 
has been a rule that has been very useful to me over the years, 
and it allows my intelligence organizations to feel free to 
give me the facts but also feel free to give me the most likely 
occurrence knowing that I bear responsibility for making 
decisions based on that middle range of information on the 
basis of that middle range of information on what is most 
likely to happen.
    The needs of diplomacy require more than a good ability to 
imagine the worst. They require real expertise, close attention 
and careful analysis of all source information. To be helpful 
to me and my colleagues in the Department of State, many of 
whom are extremely knowledgeable about the countries and issues 
they cover, the intelligence community must provide insights 
and add value to the information that we already collect 
through diplomatic channels. When the intelligence community 
weighs in with less than this level of expertise, it is a 
distraction rather than an asset.
    Third, to do my job, I need both tailored intelligence 
support responsive to, indeed, able to anticipate my needs, and 
I need informed competitive analysis. Precisely because my 
intelligence needs differ from those of the Secretary of 
Defense or the Secretary of Homeland Security or the Secretary 
of Energy, not to mention the unique requirements of our 
military services, I am not well-served, nor are they, by 
collectors and analysts who do not understand my unique needs 
or who attempt to provide a one-size-fits-all assessment.
    I am well-served by my own intelligence unit; as you noted, 
was noted by many observers, the Bureau of Intelligence and 
Research or INR, and I am pleased to have with me the director 
of that Bureau, Tom Finger. Raise your hand, Tom. INR draws 
upon comparable and complementary expertise elsewhere in the 
intelligence community, and it must be able to do this in order 
to function at its best. To respond to Senator Lieberman's 
point earlier, INR must have a seat at the table. It has a seat 
at the table now. Tom and his folks have no reluctance to 
engage with the other elements of the intelligence community, 
and as we put this new design in place, we have to make sure 
that this access is as great as ever.
    But INR is principally a staff agency of mine, not like all 
of the other intelligence organizations that we will be 
examining in the course of these proceedings. Any 
reorganization of the intelligence community must preserve and 
promote intelligence units that are attuned to the specific 
requirements of the agencies they serve. Such units should be 
designed to ensure their independence and objectivity but at 
the same time be sufficiently integrated into the parent 
organization to ensure intimate understanding of what is 
needed, when it is needed, and how it can most effectively be 
presented to policy makers.
    That is the relationship that I have with INR. My INR must 
be able to recruit and retain genuine experts able to provide 
real value to the policy making process. This requires 
appropriate and different career paths and training 
opportunities. We need specialists in INR, not generalists, 
late inning relief pitchers and designated hitters, not just 
utility infielders.
    For example, INR is in close touch with all of our 
embassies, in close touch with the regional bureau chiefs of 
the Department of State. I see Mr. Finger every single day. If 
he is out of town, I see his deputy. We have a morning staff 
meeting where all of my principal officers come together, and 
so, anything that is going on, I will see Tom face-to-face at 
8:30 in the morning and get his assessment.
    Over the course of the day, a steady stream of INR material 
comes to me. His predecessor, Carl Ford, changed the way we 
were doing business at the beginning of the administration, 
where once a day, all of us would get a huge packet of 
everything that had been going on. We essentially disassembled 
it, so that, during the course of the day, I might get 10, 15 
or so individual items from INR with a quick summary of what 
the item is all about and then the item underneath, so I can 
rapidly see if it is something I need to look at right then, 
save it for later in the day or just note it and move it on so 
that we have a steady stream of real-time information and 
analysis coming in to me in addition to what I get from CIA and 
so many other sources. But INR gives it to me in a context that 
fits my diplomatic and foreign policy needs.
    North Korea is a good example that you mentioned a few 
moments ago, Senator Lieberman. When the stories broke over the 
weekend about some explosion taking place in North Korea and 
some speculation as to whether it was or was not a nuclear 
explosion, my instincts told me it was not a nuclear explosion, 
not where it happened. It was not in a place we would have 
expected it, and so I was immediately skeptical. But within a 
short period of time, INR was able to provide me all the 
information I needed to make a judgment that I felt confident 
in going on television yesterday morning on talk shows and 
saying no, it was not a nuclear explosion. And as you know, the 
North Koreans have announced today that they were doing some 
demolition work for a hydroelectric project, and they are 
inviting visiting foreign officials, especially from the United 
Kingdom, to visit the site.
    INR kept me informed all day yesterday, and first thing 
this morning, when I got to the office at 6:35 a.m., material 
was waiting from INR, knowing not just whether it happened or 
did not happen but knowing what my specific needs were to deal 
with that situation. An hour and 20 minutes after INR made sure 
I was well-informed this morning, the South Korean foreign 
minister calls me to share notes and talk about what is 
happening in the area of nuclear weapons development in North 
Korea. And so, INR knows what my diplomatic needs are as well 
as my information, intellectual and intelligence needs are.
    Fourth, we also need to take advantage of 
complementarities, synergy, competitive analysis and divisions 
of labor. While it is imperative to have more than one 
analytical unit covering every place and problem, it certainly 
is not necessary or sensible for everyone to cover everything. 
Nor does it make any sense to pretend that every unit of the 
intelligence community is equally qualified to make judgments 
on all issues. You would not give your dentist a vote on the 
proper course of treatment for a heart problem, and we should 
not derive much comfort or confidence from any judgment 
preceded by what ``most agencies believe.'' It is not good 
enough any longer.
    What I need as Secretary of State is the best judgment of 
those most knowledgeable about the problem. INR and the 
Department of State more broadly are home to many specialists 
who are experts on topics of greatest concern to those charged 
with implementing the President's foreign policy agenda. But 
INR is too small to have a critical mass of expertise on almost 
anything. INR and the Secretary of State need comparable and 
complementary expertise elsewhere in the intelligence 
community. I rely on all of these others so much.
    This additional expertise ensures that as much information 
and as many perspectives as possible have been considered, that 
differences are highlighted, not muted, and that the sum total 
of intelligence requirements can be met by combining the 
different expertise of all intelligence community constituent 
agencies.
    Madam Chairman, it is equally important to recognize and 
capitalize on the role departmental units such as INR play in 
the overall national intelligence enterprise. For example, INR 
is not just an outstanding analytical unit, it is also the 
primary link between diplomats and the broader intelligence 
community, as I noted. Specialists who understand collection 
systems and the unique capabilities of other analytical 
components anticipate, shape, communicate, and monitor tasking 
requests that ensure that I receive the information I need when 
I need it in a form that I can use.
    The links among policy makers, analysts and collection and 
operations specialists are very short in the Department of 
State. We have short internal lines of communication, fast 
lines of communication, and this is critical to ensure that my 
diplomats around the world obtain the intelligence support they 
need when they need it and the intelligence support that they 
deserve.
    Departmental units like INR, structured and staffed to 
provide high-value support to their primary customer sets also 
support other components of the national security team. We know 
that INR products are read and used by analysts, policy makers 
and commanders around the world who do not have comparable in-
house expertise or who want a second opinion on subjects of 
importance. The de facto division of labor within the IC that 
results in part from the promotion and existence of 
departmental units is critical to the strength and health of 
the overall intelligence enterprise.
    Let me make one other point, Madam Chairman. The 
intelligence community does many things well, but critical 
self-examination of its performance, particularly the quality 
and the utility of its analytical products, is too often not 
one of them. Thousands of judgments are made every year, but we 
have got to do a better job of subjecting all of those 
judgments to rigorous post-mortem analysis to find out what we 
did right as well as what we did wrong. When we did something 
wrong, why did we do it wrong to make sure we do not do it 
wrong again? We have to have alternative judgments in order to 
make sure that we are getting it right.
    Senator Pat Roberts' proposal, for example, talks to this 
issue and assigns responsibility for conducting post hoc 
evaluations to a new Office of the Inspector General. I think 
this is a good idea. One can imagine other places to locate 
this responsibility and other ways to achieve the desired end, 
but any reform scheme should include independent review of 
analytical products.
    One more point if I may, Madam Chairman, then, I will stop 
and yield the floor to my colleague, Tom Ridge. As you know, 
President Bush has issued an executive order to improve the 
sharing of information on terrorism. We need to extend its 
provisions to intelligence on all subjects. In this regard, 
simple but critical guidelines would include separation of 
information on sources and methods from content so that content 
can be shared widely, easily and at minimal levels of 
classification.
    For this to work, collectors must have clear ways to 
indicate the degree of confidence that the information is 
reliable and user-friendly procedures for providing additional 
information to those who need it. Changes implemented by former 
DCI George Tenet earlier in this year and incorporated into the 
production of NIEs are an important step in this direction, but 
we can and must do even better.
    Similarly, decisions on who needs information should be 
made by agency heads or their designees, not collectors. Every 
day, I am sent information that can be seen only by a small 
number of senior policy makers who often cannot put the reports 
in the proper context or fully comprehend their significance. 
Intelligence is another name for information, and information 
is not useful if it does not get to the right people in a 
timely fashion.
    And finally, we must do something about the problem of 
overclassification. Today, the intelligence community routinely 
classifies information at higher levels and makes access more 
difficult than was the case even at the height of the Cold War. 
Now, by extension, I might say that my folks around the world, 
even on nonintelligence matters, just reporting what is going 
on, we tend to overclassify as well, and we have to do a better 
job of making sure that things are not overclassified so that 
these items can be shared more widely and therefore more 
effectively.
    We need a better sense of balance and proportion. It is not 
good enough for intelligence to reside on a highly classified 
computer system. If it is to be useful, it has to be available 
so that it can be used.
    One final point to respond to a point that Senator 
Lieberman made with respect to INR. INR has a budget of roughly 
$50 million a year. It is inside of my appropriation, but it is 
known and carried also in the intelligence community overall 
budget, and I think I would like to keep it that way, and I 
would protect it in that manner as we move forward.
    I have slightly over 300 very qualified folks working in 
INR. They have a tenure of roughly approaching 15 years in the 
work. So these are experts. They do not move around a lot. They 
are not part of the floating group of individuals who go around 
the world. They are both Foreign Service officers as well as 
civil servants, a large component of civil servants who have 
dedicated themselves to a particular expertise or a particular 
field of endeavor, and I am very proud of each and every one of 
them.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Secretary Ridge.

   TESTIMONY OF HON. TOM RIDGE,\1\ SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Ridge. Thank you. Good morning, Chairman Collins, 
Senator Lieberman, Members of the Committee. First of all, let 
me thank you for including the Department of Homeland Security 
in this very important discussion. While we may be less than 2 
years of age, we are both producers and consumers of 
intelligence, and we are pleased to testify before you with our 
colleague and my friend Secretary Powell.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Ridge appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    I am very pleased to have this opportunity to discuss 
important new initiatives undertaken by President Bush to 
enhance our intelligence capabilities and strengthen our 
ability to fight the war on terror. This is particularly timely 
in the wake of the thoughtful and thorough recommendations made 
by the Commission on the Terrorist Attacks on the United 
States.
    As the Commission recognized in the aftermath of September 
11, it was clear that the Nation had no centralized effort to 
defend the country against terrorism, no single agency 
dedicated to homeland security. And as all of you know, these 
tragic attacks required a swift and drastic change to our 
understanding of what it means to secure America.
    With your help, the Department of Homeland Security was 
established to bring together all of the scattered entities and 
capabilities under one central authority to better coordinate 
and direct our homeland security efforts. In the span of our 
18-month existence, we have made tremendous progress. And I 
want to thank the Commission and the Congress for recognizing 
and supporting the tremendous strides we have already made. 
That does not mean, however, that there is not quite a bit of 
additional work to do. And nowhere is this more important than 
with our intelligence operations.
    Every day, terrorists are at work to discover a 
vulnerability, to uncover a gap in our substantial network of 
layered security. Every day, hundreds of pieces of information 
come to us, some of which the public is aware, such as the 
recent al-Zarqawi tape and information gleaned from the tragedy 
of the school in Beslan, and much that the public never hears 
about.
    Intelligence gathering and sharing will always be at the 
center of our efforts to prevent an attack. That is why 
improved coordination and cooperation across all elements of 
the intelligence community has been an absolute imperative of 
the homeland security mission and one that the President has 
fully embraced and addressed with recent reform initiatives.
    Since the inception of the Department of Homeland Security, 
we have improved intelligence capabilities and information 
sharing with our partners across all levels of government and 
the private sector. The President has directed a number of 
important initiatives to be taken to further reform our 
intelligence collection and analysis. As Secretary Powell 
mentioned last month, he issued a series of executive orders 
implementing some of these reforms.
    The President established the National Counterterrorism 
Center, which will build on the important work already underway 
at the Terrorist Threat Integration Center or TTIC. TTIC itself 
was an initiative of this administration that recognized the 
need for a centralized approach to terrorist threat assessments 
for the Nation.
    This new center, the National Counterterrorism Center, will 
become our Nation's shared knowledge bank for intelligence 
information on known or suspected terrorists. It will 
centralize our intelligence efforts and help to ensure that all 
elements of our government receive the information they need to 
combat terrorist threats. It will provide a better unity of 
effort within the intelligence community and improve our 
linkage with law enforcement.
    By enhancing the flow of critical information, we will 
greatly enhance our ability to do our job protecting Americans 
and securing the homeland.
    The President has also directed that additional actions be 
taken to improve the sharing of terrorism information among 
agencies and that needed improvements be made in our 
information technology architecture. Last week, as has been 
previously mentioned by both Senator Collins and Senator 
Lieberman, the President announced yet another important step 
in his reform agenda. In a meeting with senior Congressional 
leadership, he conveyed his strong support for the creation of 
a national intelligence director.
    The creation of both the national intelligence director and 
the new counterterrorism center were recommendations by the 9/
11 Commission and embraced by our President. They are critical 
building blocks to enhancing our Nation's intelligence system. 
Under the President's plan, the national intelligence director 
would be given full budget authority over the national foreign 
intelligence program appropriation. The director will also be 
given responsibility for integrating foreign and domestic 
intelligence and would be provided with the management tools 
necessary to effectively oversee the intelligence community.
    The director will report to the President and serve as the 
head of the U.S. intelligence community. He will be assisted in 
his work by a cabinet level Joint Intelligence Community 
Council. The council is critical to ensuring sound advise to 
the national intelligence director as well as the opportunity 
for departments to shape priorities together. The new director 
provides centralized leadership for our national intelligence 
efforts and will ensure a joint, unified effort to protect our 
national security.
    The Department of Homeland Security will play an important 
role within this new structure and will directly benefit from 
the centralized leadership and the enhanced flow of information 
it will provide. The Department of Homeland Security's Office 
of Information Analysis will participate in the new 
counterterrorism center. As a member of the intelligence 
community, it will have full access to a central repository of 
intelligence information.
    DHS and other members of the intelligence community will 
now go to one place that will formulate an integrated approach 
to consolidated threat assessments and related intelligence and 
planning support. This centralization is critical to our 
efforts. The new integrated structure will create a more open 
flow of information, leaving DHS better-informed regarding 
terrorist threats and better able to address vulnerabilities 
and therefore secure our country.
    Just as important, we can effectively and efficiently 
channel that information to those who need it by using new 
communication tools such as the Homeland Security Information 
Network. Again, as several of you have previously described, it 
is important to get this information to those who can act upon 
it, and one of the responsibilities of the Department of 
Homeland Security was to not only participate in the 
interdepartmental sharing of information at the Federal 
Government but from a top to bottom information sharing scheme 
with our partners in State and local government as well as the 
private sector.
    The Homeland Security Information Network is a real-time, 
Internet-based collaboration system that allows multiple 
jurisdictions, disciplines and emergency operations centers to 
receive and share the same intelligence and the same tactical 
information. This year, we have expanded this information 
network to include senior decisionmakers such as governors and 
homeland security advisors in all 50 States as well as the top 
50 major urban areas.
    It was an ambitious goal but one that we met ahead of 
schedule, and we are still working, namely to provide increased 
security clearances and secret level connectivity not only at 
the State level but also for private sector leaders and 
critical infrastructure owners and operators.
    In order to increase compatibility and reduce duplication, 
we are also working to integrate this information network with 
similar efforts of our partners in the Federal Government, 
particularly the Department of Justice, to include the Law 
Enforcement Online and the Regional Information Sharing System. 
And all of our Federal partners as well as many others 
participate in the Department's new Homeland Security 
Operations Center. This 24-hour nerve center synthesizes 
information from a variety of sources and then distributes the 
information, bulletins and security recommendations as 
necessary to all levels of government and to the private 
sector.
    Our progress in intelligence and information sharing, I 
believe, demonstrates the links we have made between prevention 
and protection. By establishing a comprehensive strategy 
combining vulnerability and threat assessments with 
infrastructure protection, we are taking steps daily to protect 
the public and mitigate the potential for another attack.
    The focus today is on the President's actions to strengthen 
and to unify our intelligence efforts. However, there is a 
whole breadth of issues that are covered by the findings and 
recommendations of the Commission which I think are both 
indicative of and also insufficient to capture the full scope 
of the department as well as our mission. This Committee faces 
the important work of building upon the President's initiatives 
and the 9/11 recommendations to strengthen and improve our 
intelligence capabilities. I commend your efforts in this area 
and in examining and assessing the important work of the 9/11 
Commission.
    We at DHS look forward to working with this Committee and 
with the Congress as a whole in this extremely important 
endeavor.
    Chairman Collins. Thank you, Mr. Secretary.
    I am going to call on Senator Stevens first for questions, 
because he has to leave at 10:30. Senator Stevens.
    Senator Stevens. Well, thank you very much.
    I have just one question to my two friends: During my time 
here, I think I have been exposed to intelligence briefings on 
economic, particularly financial, political--particularly in 
the area of the threats to some of our basic friends and allies 
throughout the world-- and scientific--particularly in terms of 
new technology. I think it has come from not only the State 
Department but the Energy, Commerce, Justice Departments, and 
other entities.
    Now, you have INR, Secretary Powell. Do these other 
agencies continue to have a need for the ability to collect 
their own intelligence, and if so, should that be in any way 
under, or should the people be responsible to the NID if we 
create one?
    Secretary Powell. I am reluctant to speak for all of my 
other colleagues in the Cabinet. I think every Cabinet officer, 
Treasury, Energy and others, has their own unique requirements. 
And they should be in a position to make a judgment as how to 
best satisfy those requirements in their own internal 
intelligence organization that analyze those requirements.
    What we have is a collection system, CIA and so many other 
collection agencies, that bring in information. And that 
information has to be sorted through and analyzed, and it has 
to be organized in a way that serves these different parochial 
needs. Secretary Snow, Secretary Ridge, and Secretary Abraham 
have a different need than I do. And so, they have to be able 
to have an organization or some means of getting that part of 
what has been collected that is relevant to them and then to 
analyze that in greater detail.
    And I think if we did anything that damaged that process or 
damaged that system, we would regret it later. So in the case 
of INR, I think INR has demonstrated that it does that very 
well for me. It is protected in the President's proposal, and 
frankly, it is protected in all of the other proposals that are 
before the Congress. At the same time, I believe INR has to be 
seen not just as my organization but as an organization that 
participates in the work and the processes of the overall 
intelligence community, and I think the NID should have the 
ability to concur in who I select as the director of INR. If he 
and I have a disagreement, then we will take that to the 
President.
    And so, I am prepared to do what is necessary to show that 
INR is a contributing member to the overall work of the 
intelligence community but first and foremost serves my 
diplomatic needs.
    Senator Stevens. Do you have collection as well as 
analytical capabilities?
    Secretary Powell. My organization--and Tom will shake his 
head one way or the other as I say the following--is 
principally an analytic organization, not a collection 
organization. It uses the information that has been gathered by 
the CIA, by NSA and by service organizations, by energy-
specific collectors. We are an analytic organization that takes 
this body of information and extracts from it that which INR 
knows I need and the President needs and other Cabinet officers 
need with respect to foreign policy issues and the diplomatic 
perspective.
    Senator Stevens. Secretary Ridge, do you have any comment 
on that?
    Secretary Ridge. Yes, I do, Senator. As you well know, not 
only is our Assistant Secretary for Information Analysis a part 
of the intel community, but the U.S. Coast Guard is. And we 
look at both of these entities as generating intelligence that 
at some point in time is quite relevant to the National 
Counterterrorism Center. I might add that within the Department 
of Homeland Security, we have other agencies that acquire 
transactional information that ultimately may be helpful to the 
threat assessment and the responsibilities of the NCTC.
    For example, at our borders, we often secure information 
about individuals as well as conduct, and so, we have the 
Customs and the Border Patrol and the Immigration and Customs 
Enforcement. And as we continue to build and then sustain the 
relationship we have with the State and locals, conceivably, we 
might collect information up through that chain from either the 
private sector or the State and local government with regard to 
surveillance, reconnaissance or unusual activity that may be 
necessary for the National Counterterrorism Center to know.
    So I would say to you that we both produce and consume, but 
I think it is very important, given the unique responsibilities 
of the Department of Homeland Security that we do not cede this 
authority to the NID, particularly in the transactional piece 
as well as the Coast Guard.
    Senator Stevens. Well, my mind goes back to an interagency 
briefing we had for the Senate, Senate Appropriations, in 
preparation for an international economic meeting. And it was 
multiple agency, and they had multiple collectors within those 
agencies. I just wonder what could happen to that expertise 
that is out there in almost every agency that is related to the 
future of the country as much as, probably not as significant, 
but as much as counterterrorism and the military intelligence. 
This intelligence of economic and scientific basis really has a 
lot to do with our future economic development, and I do not 
see anyone yet talking about how or if they survive and whether 
they are subject to control by the NID.
    I understand what you say, Colin, about your checking your 
director with the NID, but does he have to approve your people 
that you employ?
    Secretary Powell. No; the way it has been visualized to 
this point INR works for me just as it always has in the past. 
There is no change to INR. I justify its staffing before 
committees of Congress and its funding before committees of 
Congress, and we want it to be a player in the interagency 
process with the community, but INR will keep doing what it has 
been doing.
    Senator Stevens. Thank you very much.
    Thank you, gentlemen, for your courtesy.
    Secretary Powell. I might make one point before the Senator 
leaves, and that, of course, there is another collection that 
is taking place that is not CIA or NSA, and that is just all of 
the diplomatic reporting that comes in from our embassies all 
over the world, and those cables come in, and they contain 
information that often adds to the intelligence collection 
system not often for that purpose.
    And that will always be there, and so, we are in a sense a 
collector as well as all of the other intelligence 
organizations.
    Chairman Collins. Thank you. Senator Lieberman, why do you 
not go next?
    Senator Lieberman. Thanks, Madam Chairman.
    Again, thanks to both of you for excellent testimony.
    Secretary Powell, as I said in my opening remarks, you 
really have a unique position in the intelligence community, 
and it is very important to us to have heard from you today, 
because you are not only a producer of intelligence; you are a 
consumer in areas other than terrorism, and you give us in your 
testimony, I think, some very important guidelines and 
directions that we should follow to achieve the broader reform 
of intelligence that we want.
    I am struck by some of the things you said, and I just want 
to highlight them--that the goal of the NID, you say, is to 
ensure full and prompt information sharing, to include making 
sure that agencies have access to all intelligence needed to 
carry out their missions and to perform independent analysis. 
My own interpretation of some of the things that you have said 
later in your statement is that we have not achieved that goal 
yet, and that is part of what we need from the NID.
    I was particularly struck by your comparison of the needs 
of the military for intelligence and the needs of other 
agencies, including particularly your own, and part of what is 
going to happen if we create this national intelligence 
director correctly is not, I hope and I am sure you hope, that 
we diminish the intelligence available to our war fighters, but 
we make sure that there is equally relevant, helpful 
information to other decisionmakers in our government, 
including the Secretary of State in your capacity to both form 
our foreign policy and advise the President of the United 
States about the decisions that he has to make.
    And I am struck that you are saying that the intelligence 
community, we have provided fantastic people to the military, 
but by those standards not as useful, as you say, in the world 
of diplomacy. And I think that really should guide us as we go 
forward. Am I reading you correctly or hearing you correctly?
    Secretary Powell. Yes, the war fighters have to be given 
what they need when they are going into combat, and you have to 
be able to count things, see the battlefield, get all you can 
about enemy intentions, what the enemy is going to do. That is 
becoming more difficult. In the old days, when I was a much 
younger man and a soldier in the field, they told me about 
where divisions and corps were and how I would fight them. When 
I was a corps commander in Germany, I knew all I needed to know 
about the Eighth Guards Army that was facing my corps, the 
Fifth Corps, and I knew where they were coming, how they were 
coming, at what rate they were coming. I knew how to attrit 
them as they came.
    But that enemy is gone. It is a different kind of enemy now 
that does not quite give you that sort of target. So our war 
fighters have much more challenging needs now, and the 
intelligence community has to change in order not just to be 
able to count the Eighth Guards Army along the Iron Curtain but 
what is happening, for example, inside Sadr City, a much more 
difficult target.
    Senator Lieberman. Right.
    Secretary Powell. But as we chase those targets, as we try 
to get to the bottom of that, do not forget that the diplomacy 
of the United States and the diplomats I have around the world 
and the judgments I have to make also require dedicated assets 
and the best we can do to divine the intentions of foreign 
leaders and their ability to act on those intentions. And it 
tends to be a softer, not quite as pleasant a task, and we 
cannot have an intelligence system that is so focused on one of 
the needs of the government overall that it ignores other 
needs.
    Senator Lieberman. I appreciate the answer.
    In other parts of your opening statement, you go, I think, 
quite strongly into the questions of the way in which 
information is classified, and maybe it is overclassified now. 
You make a very important distinction that if we separate 
information on sources and methods of intelligence so that we 
can share the content without--and I am not talking about the 
evening news; I am talking about making sure you get it and you 
get it, Secretary Ridge--then, we are all going to be a lot 
better off.
    And, the 9/11 Commission focused, obviously, on the pre-
September 11 failure of, for instance, the CIA and FBI to share 
information. I am hearing you to say that it is not as easy as 
it should be for you to get all of the information that you 
need to form our foreign policy from all of the other 
intelligence agencies of our government; correct?
    Secretary Powell. I think I get everything I can possibly 
read in one day from all of our other intelligence agencies. 
That is not the problem. The problem is making sure that others 
can access it and use it.
    Senator Lieberman. Who are you thinking about?
    Secretary Powell. My assistant secretaries or even lower, 
my ambassadors, political officers out at different embassies. 
We have to make sure that we are classifying these things at 
high levels and in great quantity because we do not want to 
lose the source, the method----
    Senator Lieberman. Right.
    Secretary Powell [continuing]. By which the information was 
acquired. And so, the point I was making, and it is a point 
that has been made many times, is that we have to find a way to 
protect the source and the method while using the information 
and therefore delink the source and the method from the 
information.
    Very often, we will find a leak in a newspaper where a 
source and a method has been given away, and we have really 
hurt ourselves. And what we have to do is to find ways to 
sanitize the information so that we separate source and 
information from method so that the information can be used 
more widely. And then, there is just a general bureaucratic 
tendency to overclassify things because it is easy to do.
    Senator Lieberman. And that is what we want the new NID to 
overcome.
    I want to ask you a final quick question to make it in real 
time. When the head of INR put that memo in front of you this 
morning about the questions about the North Korean explosion, 
did he have the fullest access to all the other information 
available to our government? And just to give you another 
example which we have heard in some of the other testimony, if 
you, to advise the President about what happened, wanted to 
make sure that we got adequate satellite-based imagery, are you 
confident that you could make sure that the satellite took the 
picture that you wanted it to take and that it was not--well, 
was not where the Secretary of Defense wanted it to be, because 
he thought that was more important at a given moment?
    Secretary Powell. To be precise, it did.
    Senator Lieberman. The satellite was there. That is good.
    Secretary Powell. The point is Tom did not come to work 
this morning and have the ability to go see what happened in 
North Korea as INR.
    Senator Lieberman. Sure.
    Secretary Powell. What he did was dial into what the 
intelligence community's holdings were overnight, so it is not 
something that INR did that was so brilliant; it was what the 
rest of the intelligence community did that was brilliant that 
INR was able to draw upon, analyze, look at and give me what 
they knew I would need.
    Senator Lieberman. Absolutely. And that is my question, 
that you need to know that he had the access to the total 
information available to all elements of the intelligence 
community, and hopefully, NID and the centers that we are 
talking about, I know the Commission talked about possibly 
creating a center on North Korea; a center on WMD would be very 
helpful.
    Secretary Powell. I think others should talk to whether or 
not there are needs for all of these centers, but the one 
caution I would offer is that there are just so many experts 
and analysts around. So you can create all kinds of structures. 
In the military, we would say you can create all kinds of 
spaces, but there are a limited number of faces with the 
expertise needed for these spaces.
    So be careful about creating any structures that might 
really not be necessary if all you are going to end up doing is 
competing to get the best people from organizations that are 
doing good work now to fill these new spaces.
    Senator Lieberman. I agree; it is a good warning. Of 
course, the advantage is for you, if you have a center on North 
Korea, you have got the faces in the same space in our 
government who know anything about it, so they are going to 
pool their information, argue with one another, and then give 
you and the President the best advice possible.
    Secretary Powell. Yes, but you are going to be taking those 
faces from some other organization that will not be able to 
argue a little later on. It is just a caution, Senator 
Lieberman.
    Senator Lieberman. Yes, I hear it, and that is the balance 
we have to strike.
    Thanks very much.
    Chairman Collins. Thank you, Senator Lieberman.
    That is a good lead-in to the bottom line question that I 
want to ask each of you before I go into some of the details of 
the Commission's and the President's plans for reorganizing the 
intelligence community. In the case of the North Korean 
explosion, it sounds like the current system worked well. There 
are obviously other recent examples where the current system 
did not work well to produce the kind of quality intelligence 
that we need.
    A bottom line question for both of you: Do you believe that 
a strong national intelligence director with enhanced power to 
set collection priorities and to task the collection of 
intelligence, will improve the quality of intelligence that you 
both need in your capacity as policy makers? Because that is 
really what this is all about: Making sure that we have the 
structure in place that will produce high quality intelligence 
when you need it.
    Secretary Powell.
    Secretary Powell. Yes, I do. We need a stronger, empowered 
quarterback.
    Chairman Collins. Secretary Ridge.
    Secretary Ridge. I concur, and it would also probably 
facilitate access, so improving the quality and then 
facilitating access for the multiple agencies within the 
intelligence community to each other's information flow would 
certainly be a plus-up.
    Chairman Collins. Thank you. That is very helpful, because 
that really is why we are here, and we do want to get this 
right.
    As you both know, the President has announced that he 
believes the national intelligence director should be assisted 
by a Cabinet-level Joint Intelligence Community Council, and 
Secretary Powell, you described this in your testimony as 
giving the director the sort of independent help that he will 
require to perform the job. I would like to have you both 
expand on what you see this Joint Intelligence Community 
Council doing, what you see as its advantages. Secretary 
Powell, if there are analogies with the Joint Chiefs, that 
would be of interest to us as well. We will start with you, 
Secretary Powell.
    Secretary Powell. Yes, I think this is a very useful 
corporate model to use. The counsel should advise the national 
intelligence director, identify corrections and tell him 
whether him or her that he/she is moving in the wrong 
direction. The NID is not going to be omniscient, and 
therefore, this senior body will play a very useful role.
    The parallel I was suggesting was with the Joint Chiefs of 
Staff. The Joint Chiefs of Staff, particularly as empowered by 
Goldwater-Nickles in the mid-80's, and I was the first chairman 
that had really full authority under Goldwater-Nickles from 
1989 to 1993. It had been implemented by the time I took over. 
But in effect, you took the four service chiefs, the Army, 
Navy, Air Force, Marine Corps, Coast Guard on occasion, and 
then, the Chairman of the Joint Chiefs of Staff and the Vice-
Chairman of the Joint Chiefs of Staff.
    Each of those four service secretaries came in, and they 
are responsible for the training and equipping of their forces. 
So the Chief of Staff of the Army is worrying about the Army, 
and the same thing with the Navy, Air Force and Marine Corps 
bosses. But when they came together as the corporate body, the 
Joint Chiefs of Staff, they were expected not only to represent 
their service interests but go beyond that and to represent the 
interests of the joint body of the Nation as a whole.
    And I found it to be a very workable and effective system. 
When we were all together in the time I was Chairman of the 
Joint Chiefs of Staff, I would have regular meetings with each 
of them individually where they would pound away on their 
service needs and service positions. But when I needed to know 
what they thought as professional military officers and 
separate it, step aside from their corporate responsibility or 
service, I would have a meeting in my office with no staff, no 
note takers, no agenda, and nobody on any staff knowing what I 
planned to talk about with the chiefs.
    But the chiefs knew, because I would call them. And they 
would step out. They would have sort of a slight out of body 
experience, and they would step out of their service and step 
clearly into the national need, and we got the best advice 
using that kind of technique. This, I can see in that same way, 
where you have Tom, myself, the Secretary of Energy, the 
Secretary of Defense, the Secretary of the Treasury, where each 
of us will come together with our unique parochial experience 
and with the interests of our department and agenda in mind but 
at the same time coming together as a senior-level body to 
provide advice, counsel, correction, guidance to the NID as to 
what the overall needs of the Nation are.
    And I am sure that we will be arguing amongst ourselves 
inside of that council, as we should. But there is no such 
council now that does that, so I think this is an important 
idea, and I think it will help this whole NID concept to have 
this kind of a group.
    Chairman Collins. Thank you. Secretary Ridge.
    Secretary Ridge. It is very difficult to build on that very 
strong reasoning process, but I would add one more component to 
the analogy that Secretary Powell gave you, and that is just 
enhanced accountability to both the NID and the President with 
the principals in the room. Once the consensus is reached, 
after whatever exchange of priorities, debate, discussion, 
however, but once a consensus is reached, when you have the 
principals involved rather than an assistant secretary, an 
under secretary, a deputy secretary, then, I think frankly, it 
streamlines and enhances the credibility that whatever is 
decided is to be implemented, and the principal him or herself 
is going to be held accountable.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman. Thank you and 
Senator Lieberman for not only your leadership but for your 
opening statements. I think you really spoke for all of us in 
what you said, and I want to thank our two witnesses for all 
they do.
    Secretary Powell, there were two major reports that we have 
grappled with. One is the 9/11 Commission Report setting forth 
all the failures prior to September 11, the failure to share 
information, the failure to act on it between CIA and FBI 
within those organizations, for instance. Then, there is also a 
Senate Intelligence Committee report, 500 pages of mistakes, 
omissions, distortions by the CIA, all in the same direction 
pointing towards the Iraqi threat being sharper and clearer 
than it was or turned out to be.
    My major focus is twofold: One is to be supportive of the 
reforms of the nature that we have talked about, and I think 
they are important, and they can be useful. We have got to do 
it right, but we have got to do it in many ways. I think TTIC 
has taken us a long way down that road, but I am in favor of a 
number of the reforms which have been mentioned.
    But I am also determined that we are going to do something 
to promote independent and objective analysis. Too often, we 
have not received independent, objective analysis from the CIA, 
and that has been true for a long time. This is not the first 
time. And by the way, I want to complement you, Secretary, on 
the INR, because one of the kudos given out by the 9/11 
Commission was to that INR, and a similar operation inside the 
Defense Department also received some kudos, and we just wish 
the CIA had listened to some of those findings and analyses 
rather than going down the course that they went.
    But my questions to you because of what the 9/11 Commission 
found relative to the Iraqi intelligence relates to a couple of 
specific issues which the 9/11 Commission commented on. For 
instance, the 9/11 Commission in their report said that there 
was no evidence that Iraq operated with Al Qaeda in attacking 
the United States. That was in the 9/11 Commission Report. The 
9/11 Commission Report said that there was no evidence to 
support a meeting of Iraqi secret police with one of the 
hijackers, Atta.
    And yet, you were pressed, according to the press reports, 
prior to your UN speech, to include a reference to the meeting 
that was alleged to have taken place in Prague between the 
hijacker, Atta, and Iraqi intelligence, and you refused to 
include that reference in your UN speech despite being pressed 
to do so. Now, you turned out to be right. But that pressure, 
nonetheless, was there. It came from the CIA, apparently, in 
materials that were given to you which you decided not to 
utilize, and it came as late as the night before, according to 
a Vanity Fair article. While you were sleeping in preparation 
for your speech, there was still a call allegedly on behalf of 
the CIA urging you to tighten up your references to links 
between Saddam and Al Qaeda including to make reference to that 
report that you just thought was not accurate of that alleged 
Prague meeting.
    And I wonder if you would tell us if that report is 
accurate. Were you, in fact, urged to include reference to that 
Prague meeting which the 9/11 Commission said did not exist and 
which you concluded was of dubious evidence?
    Secretary Powell. Several days before I made the 
presentation, the President asked me to make the presentation, 
and I only had about 5 days to get ready for it, and a lot of 
information had been assembled in anticipation that somebody 
would have to make a public presentation before the United 
Nations.
    When I gathered all the information that had been prepared 
by various staff agencies and the CIA, elsewhere, in the 
Executive Office of the President, some of the information 
included the ideas with respect to the Prague meeting or some 
connection between Al Qaeda and September 11. When I examined 
it all and spent several days and nights out at the CIA looking 
at the basis for all of the claims that were going to be put 
forward in my presentation, I did not find an analytical basis 
upon which to make the claim of Al Qaeda, September 11, or the 
Prague meetings, and so, I dropped them.
    Nobody pressured me; nobody called me and said I had to 
include it. I got this raw information, looked at it and 
declined to use it. The reason I declined to use it was that 
the intelligence experts that I spent those nights with at CIA 
could not substantiate it, so I dropped it. Nobody questioned 
me.
    Senator Levin. Did the CIA not attempt to reach you during 
that evening?
    Secretary Powell. As you noted, Senator, I was fast asleep.
    Senator Levin. I know, but did the CIA attempt to reach 
you? Do you know, and have you ever talked to Tenet about that?
    Secretary Powell. No, the reason I do not think this is an 
issue, and I do not----
    Senator Levin. Well, it is a 9/11 Commission issue. It is 
right in their report.
    Secretary Powell. Well, what I will say to you is that the 
CIA chopped off or concurred in everything that I said. 
Director Tenet was with me the night before my presentation in 
New York at a mockup set that we had created with all of the 
visuals and so was Deputy Director John McLaughlin, and every 
word that I used and every judgment that I came to was 
concurred in by the CIA. So the answer is no, the CIA did not 
try to put something into that statement.
    Senator Levin. Did not urge you to include that?
    Secretary Powell. No, George and John were with me, and 
they bought off on my script, and they did not say you ought to 
put this in.
    Senator Levin. Mr. Secretary, my time is up, but I really 
would like a direct answer, though, to this question.
    Secretary Powell. I just said no, they did not.
    Senator Levin. They did not urge you the night----
    Secretary Powell. No.
    Senator Levin [continuing]. The night before----
    Secretary Powell. No.
    Senator Levin [continuing]. To include something?
    Secretary Powell. No, Senator.
    Senator Levin. Thank you.
    Chairman Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    Secretary Powell. Let me be precise, Senator, because you 
are being precise. Nobody at any--neither George Tenet nor John 
McLaughlin the night before after we made the final rehearsal 
at about 10 that night, and we were all secured for the night, 
nobody at that level--I do not know what might have happened 
among staff people, but neither George nor John made any 
effort, because they had concurred in the presentation, and we 
all got up the next morning and did a final check. Neither 
George Tenet nor John McLaughlin brought forward any idea that 
this concept, these two concepts had to be introduced into my 
presentation.
    Senator Levin. That is why I referred to the staff level. I 
said on behalf of the CIA.
    Secretary Powell. I have no idea what might have taken 
place at the staff level, but it never got to my attention, and 
I would have--for the simple reason that the CIA had chopped 
off on it and had chopped off on those two points for several 
days----
    Senator Levin. Thank you.
    Secretary Powell [continuing]. Before my presentation.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman.
    Secretary Powell, you have done a very good job of laying 
out some of the specific needs that you have, and I am not sure 
whether my question is a resource question or a structural 
issue. I have, in my conversations as I have traveled meeting 
with various embassies particularly in Latin America, but I 
think it is probably fair throughout the world; post-September 
11, there has been a shift, and the shift in focus, obviously, 
with good cause, is counterterrorism.
    But the result of that is that in other areas, some of the 
economic analysis, some of the things that you talked about 
that are essential, for the long-term relationships that we 
have with this country, and I would conclude for the long-term 
security of this country are still fundamentally important. But 
the question is are the resources shifted into one area; and we 
have the resources, then, to still do the things that have to 
be done in those other areas, the economic analysis, the 
resource analysis, all the things that you and our ambassador 
have to take into account?
    I raise that because when we look at the establishment of a 
national intelligence director, and in your testimony, among 
the responsibilities would be to establish intelligence 
requirements and priorities and manage collection tasking, both 
inside and outside the country. Is there a conflict, then, with 
a national intelligence director who has those responsibilities 
of establishing requirements and priorities and then the needs 
that you have in your testimony, and then you go into saying we 
need a national intelligence director; I support that, but I 
have some very specific needs, needs about global coverage, 
needs about kind of judgments that I need, and I would suspect, 
then, needs in terms of priorities for you that are important 
in our ability to conduct treaties, conduct negotiations, 
understand weaknesses and strengths of various countries at 
various times? Is there a conflict there?
    Secretary Powell. I think it is quite the contrary, Senator 
Coleman. I now have somebody with the authority to make 
judgments and to change priorities and to shift assets around 
and to reprogram money that I can go to and make the case if I 
think there is a case to be made that something is being 
overlooked.
    And I am also on this council that gives him advice and 
counsel on these matters. So I think this gives me greater 
access into that requirements determination, reprogrammings and 
initial programming. When all the budgets come in, it is the 
NID who will assemble all of these budgets into a single 
request and then present that request to the Congress and get 
the appropriation back.
    So what you said is correct. When you have something like 
terrorism come along, and we had to allocate resources to it; 
we had to protect the homeland, and from a finite body of 
analysts and capability, something is going to come in second 
in that contest for awhile until you build your capability up 
to take care of it. What we have to do now is some capability 
building, bring more people and more resources in and make sure 
that I am making the case as to why a particular country in 
Latin America and elsewhere is not getting the coverage it 
needs, and notwithstanding the war on terrorism, we have to 
cover a particular country, and there are several who are 
deserving of that level of coverage.
    I also have to be prepared to say to the NID, and by the 
way, there are these countries where, frankly, the diplomatic 
reporting I am getting is enough, do not waste a lot of 
analytic capability on that. So, I have to be able to make the 
case on what is important, but I also have to be willing, as 
part of this council, to say do not worry about it, I will just 
read newspapers and get diplomatic reporting, and that will be 
enough for that particular country.
    Senator Coleman. As I reflected upon, Mr. Secretary, some 
of the earlier testimony we had, particularly with some of the 
former directors of the CIA, I got a sense that a lot of the 
interaction among some of the principals in intelligence was 
done in a conversational way, folks laying out their various 
needs. Because that goes on today, even in the absence of a 
national intelligence director.
    So what I am hearing from you is that you are not troubled 
by your lack of ability to have the power to make that 
decision; that you are comfortable with the opportunity to have 
input in that decision, to know that your needs would be met.
    Secretary Powell. Yes, sir.
    Senator Coleman. Secretary Ridge, among the changes that 
have been made, and I must note that in some of the testimony 
we had earlier, particularly of some of the families of the 
September 11 victims, there was a concern about have we done 
anything since September 11? And if I have learned anything, 
Madam Chairman and Ranking Member Lieberman, from these 
hearings, we have done a lot since September 11 in so many 
areas to make America safer, to make it more secure, to improve 
our ability to manage, to collect, and to analyze intelligence.
    One of those areas has been TTIC, where we have a Threat 
Terrorist Integration Center. My sense is that the National 
Counterterrorism Center is really more like a TTIC plus one, 
TTIC plus two. What is it that we are not getting in TTIC now 
that somehow we are going to get if we move to more than just a 
new acronym?
    Secretary Ridge. Well, I think first of all, in the NCTC, 
you will have--there will be an originator. The analysts there 
are compelled under the President's Executive Order to operate 
from a consolidated database and originate a consolidated 
threat assessment for the country as opposed to integrating, 
perhaps, individual assessments from multiple departments. I 
think you will see a much more robust and comprehensive 
approach. I think you are frankly going to see more people 
there doing more things and again having the National 
Counterterrorism Center personally accountable, institutionally 
accountable to the NID, who is accountable to the President, I 
think, gives us, again, a far more complete and comprehensive 
domestic picture as far as we are concerned.
    I like the ability for the NID to oversee the information 
sharing responsibilities within the respective agencies so that 
within the National Counterterrorism Center where some of my 
analysts perhaps with the Information Analysis Unit might have 
to go in and task or ask. It will already be there to our 
analysts in the National Counterterrorism Center. So I think 
this broader approach, with an originator of a consolidated 
threat assessment, and more resources committed to that will 
provide more of a push system to push more threat assessment 
out.
    It will take over a lot of the threat assessment from the 
Information Analysis Unit that I have. I mean we cede some of 
that authority. We will clearly not cede the responsibility to 
do competitive analysis as it relates uniquely to our mission, 
the domestic threat, but broader threat assessments will be 
done by the National Counterterrorism Center for us. It is a 
good tradeoff as far as we are concerned. We can use those 
analysts for other purposes and use the information analysis 
and infrastructure protection, frankly, for some of the areas 
where we have an important but limited role can be expanded.
    Senator Coleman. Thank you, Mr. Secretary. Thank you, Madam 
Chairman.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman, and thank you and 
Senator Lieberman again, both of you, for your leadership on 
this issue. It is very important.
    Secretary Powell and Secretary Ridge, we appreciate you 
being here. I know how busy your schedules are.
    So Secretary Powell, let me start with you. I found your 
testimony very interesting, especially the part where you said 
we do not need, as a consumer, you do not need a series of 
worst-case scenarios. And I liked what you said about, talk to 
your staff saying tell me what you know, tell me what you do 
not know, and also, based on what you do and do not know, tell 
me what you think. I think that is a very healthy approach. And 
you also mentioned that it is important as we, the Congress, 
and the intelligence community, as we go through these reforms, 
it is very important that we get it right.
    And I agree with you 100 percent on that, and so, I guess I 
have a general question to start with of you, Secretary Powell, 
and that is what changes would you like to see that would help 
the State Department, and I am sure that there are some changes 
that you think would be a mistake if we made those changes, 
because they would, in effect, hurt the State Department. Could 
you elaborate on those?
    Secretary Powell. I think the creation of a NID will help 
the State Department, and I will just refer to what I was 
discussing with Senator Coleman, that it now gives me somebody 
to talk to. DCI has been there before, but the DCI did not have 
the kind of authority. And in this town, it is budget authority 
that counts. Can you move money? Can you set standards for 
people? Do you have the access needed to the President?
    The NID will have all of that, and so, I think this is a 
far more powerful player, and that will help the State 
Department. There is a tendency in the intelligence community 
to make sure we are giving the war fighters everything they 
need, and I would never argue with that, because I used to be 
one of them. But I think now I am in a better position to point 
out the needs of the foreign policy experts of the department 
and my needs as Secretary of State, not only with a more 
powerful NID but with me and Tom and our other colleagues being 
on the council.
    I would be careful, and I do not want to get into this too 
deeply, because it really is the purview of others. I would be 
very careful if you started to proliferate too much 
bureaucracy, too many centers for this, and centers for that.
    Senator Pryor. Right.
    Secretary Powell. The conversation we had earlier with 
Senator Lieberman. I can assure you that there are only a 
finite number of Hangul speakers for the Korean language and 
Arabic speakers, and with the academic background and 
experience needed to do these jobs, and if you create a lot 
more structure and slice and dice it, it is the same group that 
is going to have to cover all of the new spaces until you grow 
new experts, and that is a very time consuming matter. So that 
would be my caution, Senator.
    Senator Pryor. Right.
    Secretary Ridge, let me ask you, if I can, in the 9/11 
Commission Report, it says that ``Congress should be able to 
ask the Secretary of Homeland Security whether or not he or she 
has the resources to provide reasonable security against major 
terrorist acts within the United States.'' It is on page 421. 
Do you have the resources necessary?
    Secretary Ridge. You ask me, Senator, every time I come to 
the Hill.
    Senator Pryor. I know that.
    Secretary Ridge. And the answer is yes.
    Sometimes, we differ with regard to priorities, but the 
budgets that I have been able to request on behalf of the 
President, I think the Congress has generously supported. 
Sometimes, you have moved some dollars around, because from 
your perspective, we had different priorities within DHS, and 
it is our job to accommodate that adjustment and try to do 
both, but we do.
    Senator Pryor. Secretary Ridge, you also, in the 9/11 
Commission Report, it was mentioned that I believe the 
Department of Homeland Security has to appear before 88 
committees and subcommittees in Congress, and one witness told 
the Commission that this is perhaps the single largest obstacle 
that is impeding the Department's successful development. And 
again, that is on page 421. Do you agree with that assessment?
    Secretary Ridge. Well, first of all, we accept, obviously, 
not only the Constitutional notion of the Congress' oversight 
responsibility and appropriations responsibility, but the fact 
that we are building this Department together. It is a 
partnership. I mean, there is strong support for this 
Department on both sides of the aisle from the Congress, and we 
have continued to build it together. There is more work to be 
done.
    But I will tell you in the last year, both myself and my 
colleagues in senior leadership testified over 140 times on the 
Hill. Many of them were involved in over 800 briefings up here, 
and I think we probably responded to 700 or 800 requests for 
information from GAO in addition to hundreds, particularly 
hundreds of pieces of correspondence from individual Members of 
the House or Senate. So it is a partnership. We expect and 
respect the oversight. Frankly, we think it could be a much 
more effective partnership and more rigorous oversight if the 
jurisdictions were compressed, and I will leave that to the 
wisdom and the leadership on the Hill.
    Senator Pryor. The 9/11 Commission said 88 committees and 
subcommittees.
    Secretary Ridge. That is correct.
    Senator Pryor. Is that right?
    Secretary Ridge. If someone took a look at the 535 Members 
of Congress and said but for a handful, somebody somewhere has 
an opportunity to make an inquiry that has Homeland Security 
implications.
    Senator Pryor. And the last thing I had is I know that in 
the 9/11 Commission Report, it really talks about how some 
people should report to two different agency heads, and the 
NID's deputy for homeland intelligence would be one of those, 
and I guess I am a little bit mindful of what the Bible says 
about not being able to serve two masters. Do you think that 
can be worked out and structurally that one person, one deputy, 
could be reporting to both, and does that cause you any 
concern?
    Secretary Ridge. If that is what Congress decided we had to 
do, we would do it, but the admonition about serving two 
masters is a good one. And I think the President, in 
anticipation of that concern, in his recommendation included 
the Joint Intelligence Community Council, so you are not 
dealing with necessarily people serving two roles on a day-to-
day basis, but you have access to the principals at the Cabinet 
level to make the critical decisions and to give guidance and 
to compete for the attention and the budget and everything else 
that will be in the control and the responsibility of the NID.
    So the dual-hatting is not an approach that I think I can--
rarely do I speak for any of my colleagues in the Cabinet, but 
I do not think anyone supports that as a means to the most 
effective integration of what we do individually as departments 
and our working relationship with the NID.
    Senator Pryor. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Secretary Powell, do you want 
to respond to that issue also?
    Secretary Powell. He is speaking for me, too. That is not a 
good idea.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman, and our thanks to 
you and Senator Lieberman for convening yet another really 
valuable set of witnesses here today for us. It is great to see 
both of you, and thank you for your service, and I welcome you 
today.
    Secretary Ridge would be disappointed if he left here today 
and I did not ask him about rail security. And I do not want to 
disappoint him, but I will not lead off with that, but just to 
give you something to look forward to, I will come back to 
that.
    A good friend of mine just passed away about 2 weeks ago. 
He was a minister, a Methodist minister and paster of churches 
all over Delaware. His name was Brooks Reynolds. And he would 
have been 89 years old on Election Day had he lived. He used to 
give the opening prayer at our General Assembly for many years 
when I was governor. And among the things I have often heard 
him say, and I have heard him say more than a few times; he 
used to say the main thing is to keep the main thing the main 
thing.
    I just want to--in recalling his words, for us, who serve 
on this Committee and are charged with developing at least a 
proposal for addressing our intelligence inadequacies, what 
should, for us, be the main thing?
    Secretary Powell, do you want to tackle that first?
    Secretary Powell. The main thing is to do no harm to an 
intelligence community that is very competent; very dedicated, 
and overall is doing an excellent job. What we want to do, the 
main thing we want to do is to put these very competent, 
qualified people in an even better position to do an even 
better job. That is the main thing. So everything you do and 
every change that you make in the current system has to be for 
the purpose of putting these individuals in a better position 
to do a better job.
    I think that having a national intelligence director with 
real authority not just ``bureaucratic authority'' of the kind 
that the DCI had in the past is part of putting them in a 
better position to do the better thing. And I think with the 
council of the kind that we have discussed here this morning in 
place and functioning also helps us do a better thing. And I 
feel strongly about that. When Tom Ridge took over as advisor 
in Homeland Security and then took over the Department of 
Homeland Security, it was a brand new thing in the world, and 
it was a single place to go for homeland security issues and 
authority.
    And I welcomed it, and Tom will tell you I am forever 
sending him things that I need done or problems that I have 
that relate to homeland security. But at least I now have 
somebody to send it to. Now, he does not always welcome my 
mail, and it usually----
    Secretary Ridge. They are not always love letters.
    Secretary Powell. They are not always love letters. The 
fact of the matter is, though, I now have somebody who, in one 
person, can deal with these kinds of issues. I think it is the 
same thing with a national intelligence director. He will be 
the main person working on the main thing and keeping our focus 
on the main thing.
    Senator Carper. Thank you. Secretary Ridge.
    Secretary Ridge. Not too much to add.
    Senator Carper. You can repeat for emphasis if you like.
    Secretary Ridge. I think back to, actually, the reference 
that Secretary Powell made when I was serving in the White 
House as assistant to the President for Homeland Security and 
was given the opportunity and the responsibility to coordinate; 
there is certainly a difference in terms of authority and 
response to that authority if you are part of a coordinating 
effort versus a command and control component.
    And as Secretary Powell pointed out, when you give the NID 
the budget authority, in this town as everywhere else, that is 
the ultimate command and control. The only one other dimension 
that I think this will significantly improve, and it has 
improved every day since September 11, but I do not believe 
anybody is to the point where they think we have a perfect 
system, and that is information sharing generally, not just 
inter-Federal Government but down to the State and locals.
    And again, when you have a NID who can talk about and 
reconsider the Cold War classification system and the handling 
caveats, obviously, with the notion that you do have to protect 
sources and methods, but we do have allies and those who can 
help us combat terrorism at the State and local level; and 
again, under a NID, over time just kind of reviewing and 
assessing the kinds of information that can be channeled down 
to those on the streets and in the neighborhoods I think will 
be a huge improvement over the existing approach we have now.
    Senator Carper. Thanks. I seem to be hearing the word wrong 
a lot lately in public discourse. Would you just take a minute 
and share with us as we consider the recommendations of the 9/
11 Commission, big ones and not so big ones. What would be the 
wrong thing to do with respect to following any one of the 
recommendations that you do not particularly agree with?
    Secretary Powell. I think it would not be a good thing to 
go to this deputy system, and we had this conversation a little 
while ago. I also think you cannot serve two masters 
effectively. There are better ways to do that.
    We still have to look at exactly how the NID is placed 
organizationally within the Executive Branch. I think the 
President has made it clear that he thinks it is better that it 
not be located in the immediate Executive Office of the 
President. I also think that would be a wrong thing to do. I do 
not have any others that I need to touch on right now, Senator 
Carper, that come to mind. I do not know if Tom does.
    Senator Carper. Secretary Ridge.
    Secretary Ridge. I would concur with my colleague. Again, 
one challenge: It would be wrong to assume that we have got the 
system of sharing the information with the State and local 
worked out. I think the NCTC is empowered to share that 
information, and I just hope that one of the considerations 
that this Committee and others take a look at is that was 
initially, and I think permanently, a responsibility of the 
Department of Homeland Security, but the Department of Justice 
has a role to play.
    I mean, we have to take a look at the National 
Counterterrorism Center to see what, if any, role. We do not 
want to start building up independent lines of communication, 
stove pipes, if you will, getting whatever information we think 
is relevant and appropriate down to the local level. So it 
would be wrong to assume that with this configuration we have 
solved all of the problems. We still have, I think, a very 
critical dimension to be discussed, and it may or may not be 
dealt with in the legislation as to the points of access from 
the State and locals to the kind of information that can be 
appropriately distributed to them.
    I think that is important from a homeland security 
perspective.
    Senator Carper. Thank you.
    Madam Chairman, my time has expired. Could I ask Secretary 
Ridge to take maybe 30 seconds and just give us a quick update 
on rail security?
    Chairman Collins. No. Yes, you may.
    Secretary Ridge. Thank you, Madam Chairman. I liked your 
first answer. [Laughter.]
    Senator Carper. Thank you.
    Secretary Ridge. Senator, as you well know, under the 
President's directive, we are obliged by the end of this year 
through the Transportation Security Administration to come in 
with a National Transportation Security Strategy. Clearly, 
railroads are an integral part of that strategy. But we are not 
waiting for the strategy document to be developed to take some 
immediate action, and during the past several months, working 
with Amtrak, working with Congress but working with Amtrak, 
working within our Science and Technology Unit, we have got 
certain pilot programs to test--they are basically explosive 
portals to see if we can pick up traces of explosives on 
passengers or baggage.
    We have deployed, and again, these are pilot programs but 
sensing technology at different places. We, frankly, have built 
up the supply of canine teams at railroads around the country; 
pretty reliable, old technology. They are well-trained, and 
they do a darned good job. But there is still much more that we 
need to do, and as I know it is a very high priority for the 
Senator, I look forward to continuing to working with the 
Senator in that regard, particularly once the complete analysis 
is done within the railroad industry.
    They have had a representative within our critical 
infrastructure protection unit since day one. They are very 
well organized. They are very helpful in this assessment 
effort, and we look forward to sharing the product with you.
    Senator Carper. Thanks very much.
    Madam Chairman, you know the old saying you cannot teach an 
old dog a new trick, and as it turns out, these dogs are pretty 
good sniffers, and we just need a few more of them, and I am 
pleased to hear that they are being more broadly deployed.
    Chairman Collins. Thank you.
    I would note that we have been joined by the distinguished 
chairman of the Armed Services Committee. We thank you for your 
commitment to this issue and for joining us this morning.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Madam Chairman and Senator 
Lieberman for this hearing.
    Secretary Powell, Secretary Ridge, thank you for your 
service to our Nation, and thank you for being here today.
    Secretary Powell, I am a member of the Senate Intelligence 
Committee, as several are on this panel. Part of the invasion 
of Iraq, I listened carefully to day after day of information 
being given in that Intelligence Committee with a growing 
degree of skepticism. The hyperbolic statements about the 
threat to America, both public and private, the slam dunk 
certainty about weapons of mass destruction, I took with 
growing skepticism and ultimately voted against the use of 
force resolution.
    There was one moment that shook my confidence in my 
position, and that was when you appeared before the United 
Nations. And it is because of my respect for you. And I thought 
if Colin Powell is convinced, maybe I ought to think about this 
again. Now, Senator Levin has raised the question about your 
discerning judgment in what you said before the United Nations. 
But I think in reflection, I hope I am saying this accurately, 
but looking back on that testimony in light of the reality, the 
failure to find any evidence of weapons of mass destruction or 
a nuclear program as was described, that you were not given 
good intelligence.
    And I think the bottom line to all that we are about here, 
as Senator Collins and Senator Levin have talked about, is 
whether or not making changes, pursuing the 9/11 Commission 
goals will lead to better intelligence, our first line of 
defense in the war on terrorism. We talk a lot about the wiring 
diagrams and the boxes and the charts and whether we are 
changing email addresses and spaces and faces.
    What is it about the reforms that you have read that lead 
you to believe that either you or some future Secretary of 
State will not be put in the same compromising position, being 
given intelligence data to tell the world and America in 
preparation for a war that turns out to be at least fragmented 
and perhaps just plain wrong?
    Secretary Powell. Intelligence is always something that 
there is some risk with, because you are dealing with a target 
that is doing everything he can to keep information from you. 
So you will never have a perfect picture of what is actually 
happening. With respect to the presentation I gave, over a 
period of years, a body of intelligence information had been 
built up that said that this is a regime that has used this 
kind of capability in the past against its own people, against 
its neighbors. They have gassed people. This is a regime that 
has not accounted for stockpiles and quantities of materials 
that they were known to have or have not accounted for 
previously and could have accounted for but chose not to, so 
they are trying to keep something from us.
    This is a regime that has never walked away from their 
intention to have such capability. A reasonable person could 
have thought that, in my judgment, anyway, that Saddam Hussein, 
if not constrained by the threat of force or constrained by 
international sanctions or international pressure, all that 
went away, would not use his intention and the capability that 
he had to have such stockpiles. We know that he had dual use 
facilities. We know that he had been going after precursor 
materials; we knew all of that. And it was not just what we 
knew; it was what other intelligence organizations knew, and it 
was the conventional intelligence wisdom of the international 
community.
    When we presented all of this, I think that was solid 
information, frankly; notwithstanding criticism of the 
presentation and our intelligence picture, it stood the test of 
time. What has not stood the test of time was the judgment we 
made that there were stockpiles of chemical and biological 
weapons. On the nuclear side, there were real questions as to 
how much we really knew. Tom Finger and my INR guys and Carl 
Ford kept suggesting to me that it is not that clear a case, 
and that is why, in my presentation, I indicated some 
uncertainty with respect to the centrifuges and the nuclear 
capability, although others in the intelligence community felt 
more strongly about it than INR did.
    But we all believed that there were stockpiles of chemical 
and biological weapons. There was no real dispute within the 
community except how large they might be, and there was also no 
dispute about the fact that there were large gaps in 
information and questions that were unanswered by the Iraqis 
over all these years: Why are they not answering these simple 
questions about what they did with some of this material?
    INR also agreed with that. INR did not say there were no 
stockpiles. INR said there were stockpiles. It has every reason 
to believe there are stockpiles. We could question the size of 
stockpiles, but we all believed there were stockpiles. It 
turned out that we have not found any stockpiles; I think it is 
unlikely that we will find any stockpiles. We have to now go 
back through and find out why we had a different judgment.
    What I have found over the last year and several months is 
that some of the sourcing that was used to give me the basis 
upon which to bring forward that judgment to the United Nations 
were flawed, wrong.
    Senator Durbin. I am running out of time.
    Secretary Powell. Yes.
    Senator Durbin. But I want to bring it to this conclusion--
--
    Secretary Powell. But it was an important question, and I 
have got to----
    Senator Durbin. But what is it about----
    Secretary Powell. I am going to get to it.
    Senator Durbin [continuing]. Our agenda that will change 
that, that will make us more accurate in describing and 
understanding our enemy?
    Secretary Powell. I am not ducking. I am going to get to 
the question, but I have to do it this way.
    Senator Durbin. OK.
    Secretary Powell. What troubled me was that the sourcing 
was weak, and the sourcing had not been vetted widely across 
the intelligence community. What also distressed me was that 
there were some in the intelligence community who had knowledge 
that the sourcing was suspect, and that was not known to me. It 
did not all come together in a single way with a powerful 
individual and a powerful staff who could force these people to 
make sure that what one person knew, everyone else knew. That 
is what we have been talking about all morning.
    There were some intelligence communities that had put out 
disclaimers about some of the sourcing that were not known to 
the people who were giving me the analysis and the conclusions. 
Now, it seems to me that if you have a powerful, important, 
empowered national intelligence director, you are less likely 
to have those kinds of mistakes made, and if you focus this new 
system, this new approach to business on sharing all 
information openly, widely, and without fear of busting your 
stovepipe, then, it is less likely that you will have the kind 
of situation where I go out there, and I am saying something, 
while there are people in one part of the intelligence 
community not connected well enough to another part of the 
intelligence community who know--they knew at the time I was 
saying it that some of the sourcing was suspect.
    That is what we have got to make sure we do not allow to 
happen, and I think an empowered NID that has the authority to 
direct, move money around, move resources around, we are in a 
better position to avoid that kind of problem.
    Excuse me for taking time to get there.
    Senator Durbin. No, it was an excellent answer, and it 
leads to about a dozen followup questions, which I am going to 
have to wait for. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    Thank you both, and I think when all is written, and much 
has been written already, you two will be seen as true heroes 
in this whole operation.
    I want to pick up on something that Senator Durbin was just 
referring to, and that is this multiplicity of function and 
responsibility, because my father, who is a very successful 
businessman, said once that if someone is not responsible, 
then, no one is accountable. And it seems to me we have this 
dilemma here with whether or not to create or allow to continue 
this plethora of different operations with various people 
responsible, and now, we are talking about a coordinator or 
director or somebody with partial authority but not complete or 
a monolith.
    And given the reality that a preponderance of the budget 
and therefore the operations are under the Secretary of 
Defense, I do not see how realistically, unless you extract 
every one of those intelligence operations out of the Secretary 
of Defense's authority you can give that to any director or 
anyone else as a practical matter.
    And then, we get into, and I am going to refer to one of 
these sources, a book called the Pretext for War by James 
Bamford, because frankly, even as a Member of both this 
Committee and the Armed Services Committee, most of what I find 
out, whether it is accurate or not, but most of what I find out 
that gets into the depth of what is either going on or is 
alleged to be going on comes from these external sources. It 
does not come from information that I get directly from anybody 
who is involved.
    And the point I am making here, and I will give you a 
chance, hopefully, at the end of this time to respond to it, 
but I want to put it on the record because it gets, to me, to 
the core of the dilemma that we have where we have these 
different actors carrying out these different functions. And 
then, as Senator Durbin said, somebody else is dependent on 
that for the validity of the information.
    He writes, and I am editing a little bit here, but I am 
keeping the integrity of it, I believe: Beginning in the mid-
1990's, Chalabi and his crew of INC directors were shunned by 
the CIA and the State Department. They considered them little 
more than a con man trying to wrangle large payments and to get 
them to start a war so he could be installed as president.
    The Pentagon, however, had a different agenda, and in the 
spring of 2002, both Wolfowitz and Rumsfeld began seeking 
Bush's intervention to grant Chalabi $90 million from the 
Treasury. While the Congress had authorized $97 million for 
Iraqi opposition groups under the 1998 Iraq Liberation Act, 
because of State Department objections, most of that had not 
been expended. State had argued that it would be throwing good 
money after bad, because Chalabi had not accounted for previous 
monies given to him.
    Nevertheless, a major effort was made to use Chalabi's 
reliable defectors and hyped anti-Saddam charges to channel 
disinformation to the media and help sell their war to the 
American public through the press. One man, a former Iraqi 
engineer, claimed that he had personal knowledge of hundreds of 
bunkers where chemical, biological and nuclear weapons research 
was hidden throughout Iraq. It turned out that he had worked 
previously extensively for Chalabi and the INC, making anti-
Saddam propaganda films. Worse, he had also worked for a 
shadowy American company, the Renden Group, that had been paid 
close to $200 million by the CIA and Pentagon to spread anti-
Saddam propaganda worldwide.
    The firm is headed by John W. Renden, a rumpled man often 
seen in a beret and military fatigues, who calls himself, an 
``information warrior and perception manager.'' His specialty 
is manipulating thought and spreading propaganda. Soon after 
the attacks of September 11, the company received a $100,000 a 
month contract from the Pentagon to offer media strategy 
advice.
    Among the agencies to whom it provided recommendations was 
the Office of Strategic Influence, which is apparently intended 
to also be a massive disinformation factory. That is the 
editorial comment of the author. In the end, nothing was found, 
not a single bunker. Al-Hadari claimed that the evidence had 
probably been moved. Well, gosh, how do you move an underground 
facility, asked Scott Ritter, a former UN weapons inspector in 
Iraq? It is the classic defense of the fabricator to say, well, 
they are moving it. They are hiding it.
    Ritter said he used to hear the same excuses from Chalabi 
when Ritter worked as a weapons inspector in Iraq: ``That was 
what Ahmed Chalabi always told us every time we uncovered his 
data to be inaccurate,'' said Ritter. He said, ``well, they 
change scenes; they are too clever for us. They are too fast. 
They respond too quickly. No, Ahmed. No, Mr. Al-Hadari, you are 
just liars. And it is time the world faced up to that. They are 
liars. They misled us, and they have the blood of hundreds of 
brave Americans and British service members on their hands and 
hundreds of thousands of innocent Iraqis who perished in a war 
that did not need to be fought.''
    The entire story may have been little more than a U.S.-
sponsored psychological warfare effort, the Renden Group's 
specialty, to gin up the American public's fear over Saddam 
Hussein. If so, it would have been illegal under U.S. law, 
which forbids the use of taxpayer money to propagandize the 
American public. ``I think what you are seeing,'' said Ritter, 
``is the need for the U.S. Government to turn to commercial 
enterprises like the Renden Group to do the kind of lying and 
distortion of truth in terms of peddling disinformation to the 
media that the government cannot normally do for itself.''
    Having largely shunned the CIA's analysis, the Pentagon's 
top leadership was instead dependent on selectively-culled 
intelligence from a man who had long pushed his own radical 
agenda for the Middle East and the bogus information from 
Chalabi and his defectors. It is a dangerous exercise in self-
deception. Their task now is to frighten and deceive the rest 
of the country, and there is no better way than with the image 
of a madman a few screws away from a nuclear bomb.
    Now, if that is what is going on or even partially true 
what is going on, and that is over in one province, and you are 
in another, and somebody else is in another, and nobody is 
ultimately responsible for that, then, who is responsible, and 
who could possibly be held responsible, Mr. Secretary?
    Secretary Powell. I cannot speak, of course, to any of the 
matters----
    Senator Dayton. Well, you would know better than I would 
whether it is partially true or not, but if it is even 
partially true, if there are these rogue actors out there, if 
there are private firms being subcontracted by various agencies 
of our government, and if they are then distilling information 
that then becomes the information that is provided to other 
secretaries, to the President, to the Vice-President, I do not 
fault them. They are ultimately reliant on what they are 
getting from these other sources.
    But then, if no one is in charge, then, ultimately, when we 
do get the problems that we have encountered, then, no one is 
accountable.
    Secretary Powell. I receive my information from the 
government's intelligence community, from the CIA and from INR. 
Now, if some of the sourcing that went to the CIA was wrong or 
had suspicious underpinnings, it was not known to me, and I do 
not think it was known to the CIA until after the fact. But I 
cannot talk about the Renden Group. I know nothing about it.
    Senator Dayton. My question, sir----
    Secretary Powell. I think you are in a better position to 
deal with this kind of problem if you have somebody who, as we 
have noted earlier, has the power and the authority to make 
judgments about such matters that are removed from any one of 
these stovepipes. This NID, with the power of the purse and 
with the relationship that he will have to the President and 
not being in any one of the stovepipes I think is in a more 
powerful position to question any of the information or 
judgments that he is being given from any one of the 
organizations of government.
    Senator Dayton. But, sir, is he or she sufficiently 
powerful to make all of those judgments when he or she is not 
going to be aware of all that is going on? The former director 
of the CIA, James Woolsey, testified before our Committee; was 
very helpful to me, anyway, in defining that to really be able 
to be held accountable, you have to have full budgeting 
authority; you have to have hiring and firing authority; you 
have to have tasking authority; and then, you have to have 
control of the information and its distribution.
    Well, the proposal from the President goes part way in that 
direction. It does not go all the way, and I guess my question 
is given that the preponderance of the budget and 
responsibility, then, that resides within the Secretary of 
Defense's purview, is it realistic that anybody else is going 
to be able to be sufficiently--to have the sufficient authority 
to prevent these kinds of tangential operations, know they are 
occurring, be able to assess whether they are accurate or not 
and ultimately, then, give to you or to the Vice-President or 
the President information that can be relied upon?
    Secretary Powell. Because this individual sets 
requirements, priorities; he can reprogram or she can reprogram 
funds on their own authority, whether it is endorsed or not 
endorsed by those whose programs are about to be reprogrammed, 
I think that is enormous authority. What I do not think you 
should think about doing is to take all of these disparate 
intelligence organizations that are now in bureaucratic 
entities and think that they can just be brought out and put in 
some new superintelligence organization that I think would be 
very difficult to manage and would break the link between these 
intelligence organizations that they are supporting, especially 
within the military context and the direct kind of support that 
NRO and DIA and similar organizations give to the war fighter.
    I do not think that their programs should be removed from 
their current bureaucratic entity and moved into a super, new 
bureaucratic entity.
    Senator Dayton. Thank you, Madam Chairman.
    Chairman Collins. Senator Warner, I would like to give you 
the opportunity to question the witnesses if you have any 
questions you would like to ask at this point.

 OPENING STATEMENT OF SENATOR WARNER, A U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Warner. I appreciate that courtesy. I will avail 
myself of that opportunity.
    Secretary Powell, drawing on the experience of the past 
when we worked together, one of our challenges was the 
Goldwater-Nickles Act, which revised a good deal of the 
structure, particularly in the Joint Chiefs and so forth. One 
of the provisions we put in there, you are very familiar with 
it, having been chairman at one time yourself, and that is in 
the course of the deliberations, the chairman is the principal 
advisor to the President, but if one of the service chiefs 
feels very strongly about his or her views, whatever the case 
may be, they have the opportunity to go to the President and 
express an opinion to some degree at variance with the 
chairman.
    I want very much to try and work with this Committee and 
other committees to craft a similar provision in whatever 
legislation may be forthcoming. Again, I feel that the NID will 
be a very strong stovepipe in collecting this information, but 
it may well be, for example, that the CIA director might have a 
view different than the NID's or our distinguished colleagues 
with you here this morning. And I would like to have 
reassurance that those individuals in those respective 
positions and perhaps yourself could ask to be present at the 
time the NID addressed an issue at which you felt at variance.
    Without getting into the specifics, do you feel that such a 
safeguard is a valuable thing to work into this legislation?
    Secretary Powell. Without seeing exactly what the language 
would look like, Senator Warner, I think it would be useful to 
consider such an idea. As you know, in Goldwater-Nickles, the 
chairman, and let us say now the NID----
    Senator Warner. Yes.
    Secretary Powell. That is who the equivalent is----
    Senator Warner. We are talking about the NID.
    Secretary Powell [continuing]. Is the principal advisor, 
military advisor, in the chairman's case, to the President. But 
all of the other chiefs were military advisors to the 
President, and during my time, there were one or two occasions 
where a chief said I want to speak directly to the President, 
and we made it happen.
    Also, the chairman--I never went and gave my advice to the 
President without all of my colleagues and the chiefs knowing 
what I was going to tell the President, so they would have an 
opportunity to say no, I do not agree, and I want to talk to 
the President. And that is the way it works out. I think it 
should work the same way.
    Now, what I have just described to you with respect to the 
chiefs was a matter of law. Now, in the JICC, I am not sure 
that any of the Cabinet officers would be shrinking violets 
with respect to going and telling the President what they 
thought, with or without the benefit of provision of law. But 
you took it a little further to say, well, how about the 
director of CIA----
    Senator Warner. Correct.
    Secretary Powell [continuing]. Or all these other folks, 
should they have the ability by law to say the law says I may 
do this; therefore, you must let me do it. I think it is an 
interesting proposition. I do not know that off the top of my 
head, I would object to it, but of course, I would have to see 
exactly how it is worded and how it is put in.
    Senator Warner. Well, we will work on that principle, and I 
am going to consult, as a matter of fact, today with the 
distinguished Chairman and Ranking Member, at which time I will 
raise that.
    My second general question is that both of you have 
remarkable careers of public service and particularly in 
Federal service. The need for intelligence by our President and 
our military is daily, 7 days, 7 nights, constant. We just 
cannot turn off the spigot with this new piece of legislation, 
hope to put in place all the pieces and then go back in 
whatever of time lapses to turn it back on to function.
    So some thought has got to be given to the transition from 
the present system to the new system. And I wondered if you had 
given any thought as to how that transition could best be 
achieved, and do you see that we should focus on it, because 
those enemies wishing to inflict harm will view this 
transitional process as possibly a time of America's weakness.
    If either witness would care to comment on that.
    Secretary Powell. Oh, I think you have to be very careful 
as you transition to a new system. It is a baton pass. The race 
does not stop when you hand the baton off. And so, there has to 
be a very careful plan as to how the NID will come into being. 
It will have to be tested and tried and rehearsed, and they 
have to be up and running before you can say fine, you have got 
the baton. And I think a great deal of care has to be taken to 
design and implement that transition.
    Senator Warner. Thank you, Mr. Secretary.
    Secretary Ridge. I just wanted to say, Senator, I very much 
appreciate the question, because with the creation of the NID 
and the accompanying National Counterterrorism Center, there 
has obviously got to be significant thought given to the kinds 
of resources that will be used--staffing, technology and the 
like--and right now, in response to September 11, there are so 
many agencies that are building up their analytical capacity. 
We are one of them; as is the FBI. So there is tremendous 
pressure out there to find the best and the brightest to come 
into our respective agencies simply to fill previously imposed 
or agreed upon requirements set with the Congress of the United 
States.
    So the transition from a good system that people admit 
there are some imperfections to it to this different system is 
a critical period where, to use Secretary Powell's admonition, 
you start with the notion that you do no harm, and you could do 
significant harm, I think, to existing entities if you 
immediately assigned a significant number of analysts from them 
into the National Counterterrorism Center and the like.
    So again, it is just a word of caution, because there will 
be substantially more resources, people and technology involved 
in this, and it is going to take time to build up the capacity, 
I would presume.
    Senator Warner. I think we should focus on that. Now, 
whether there is some--I have always been of the opinion that I 
think we will be able to achieve a measure of legislation in 
this Congress, and I hesitate to say it, but it may be a task 
left to the next Congress to look at this thing after some 
experience time.
    My last question would be again to Secretary Powell. You 
will recall very vividly during the Gulf War that on the 
tactical side, we had a lot of shortcomings, and General 
Schwartzkopf and many others came before the Armed Services 
Committee, and we have worked, and I say we, successive 
administrations and chairman of the JCS and so forth to improve 
that. And do you agree that we have made substantial 
improvements?
    Secretary Powell. Yes.
    Senator Warner. And we do not want to now, in this 
challenge before us, dismantle any of those things that we put 
in place. I do not know whether you have addressed that today 
or not.
    Secretary Powell. I think we have, Senator, in the course 
of our presentations.
    Senator Warner. All right.
    Secretary Powell. We want to make sure that these young men 
and women we send into battle have what they need, and we do no 
harm to that system.
    Senator Warner. I thank the Chairman and the Ranking 
Member.
    Chairman Collins. Thank you, Senator Warner.
    I was just discussing with the Ranking Member that we are 
putting into our bill a mechanism to have a lookback to see how 
the reforms have operated so that it would be, I guess, an 
action-forcing mechanism to make sure that Congressional 
oversight stays vigorous in this area. And we would be happy to 
work further with you on that and look forward to our meeting 
later today.
    Secretary Ridge. I thank you.
    Chairman Collins. My colleagues, I would note that I 
promised our two witnesses that they would be able to leave by 
noon today in order to keep other commitments. So we are not 
going to be able to have time for a second round. But I would 
encourage--there are a lot of additional questions, and I would 
encourage them to be submitted for the record, and I would 
encourage our two distinguished witnesses to respond as 
promptly as possible to those questions, because we are on an 
expedited time frame. We do hope to mark up legislation next 
week. We look forward to continuing to work very closely with 
you.
    In closing, I want to thank you both for your extraordinary 
service to your country. At a very difficult time, when we are 
facing many challenges both domestically and internationally, 
our Nation is very fortunate to have public servants like you 
who have served so well and so long, and we very much 
appreciate your helping us in the vital mission that this 
Committee has been assigned.
    This hearing record will remain open for 5 days. I would 
like to ask Senator Lieberman if he has any closing remarks.
    Senator Lieberman. Thanks, Madam Chairman.
    Again, I thank the two of you. Secretary Ridge, you are in 
the unique position of having set up a department and really 
brought together in a way larger than the NID will have to do, 
the new national intelligence director; I appreciate very much 
what you have done in that regard, and your counsel as we move 
forward to create this new coordinating body in the national 
security interest will be incredibly important.
    Secretary Powell, thanks for your testimony, which has been 
very helpful. And you said something that as we go about 
reforming the intelligence community, with all of the questions 
we are raising about counterterrorism and all of the 
information we need on other trouble spots like North Korea and 
WMD, it is a very simple sentence you gave us, but it is very 
profound. And it goes to the heart of what so many of the 
controversies, including some you have been questioned on 
today, which is the rule that you use with your intelligence 
officers over the years: Tell me what you know, tell me what 
you do not know, and then, based on that, tell me what you 
think is most likely to happen.
    And I think in many cases, including the most controversial 
regarding WMD pre-Iraq War, there has been a tendency, for 
some, to interpret the third part of your formula--tell me what 
you think is most likely to happen--as the first--what you 
know--and in the end, in many cases, I have learned a lot in 
these hearings, and you have lived with this all your life, 
intelligence is ultimately about making your best judgment 
based upon what you know and what you do not know.
    There are a lot of big decisions made which are not based 
on--it is not two and two equal four. You have got this 
information; you do not have that information; the national 
security is on the line, and you do the best you can based upon 
what you think is most likely to happen. I have a running 
dialogue with a few of my colleagues here about WMD. I 
understand your concern that you were not told about the 
sources. That is a very critical component. Incidentally, Bob 
Mueller, the head of the FBI, made a very comparable point 
about what is important to know, but it seems to me we did know 
what he had, we did know what he did, Saddam, and there was 
reason to believe that he likely had stockpiles. Now, so far, 
we have not found them. But to this individual consumer of 
intelligence, I am still not convinced he did not have them. We 
have just not found them, and maybe they are somewhere else.
    So anyway, it is very important through all of the 
structures and discussions we are having to remember that 
intelligence comes down to the--I am going to create a new 
Powell doctrine here. No, the Powell Doctrine has other 
applications. This will be Powell's Law. It is a very important 
thing for us to remember as we try to reform our intelligence 
apparatus: Better to know what we know and what we do not know, 
but ultimately, we have got to make our best judgment what is 
likely to happen. Thank you very much.
    Chairman Collins. Thank you.
    I want to close by thanking our colleagues for being here 
today. I know Monday morning hearings are very difficult, since 
my colleagues and myself go home each weekend, and I appreciate 
the efforts that they made to be here as well.
    This hearing is now adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7044.001

[GRAPHIC] [TIFF OMITTED] T7044.002

[GRAPHIC] [TIFF OMITTED] T7044.003

[GRAPHIC] [TIFF OMITTED] T7044.004

[GRAPHIC] [TIFF OMITTED] T7044.005

[GRAPHIC] [TIFF OMITTED] T7044.006

[GRAPHIC] [TIFF OMITTED] T7044.007

[GRAPHIC] [TIFF OMITTED] T7044.008

[GRAPHIC] [TIFF OMITTED] T7044.009

[GRAPHIC] [TIFF OMITTED] T7044.010

[GRAPHIC] [TIFF OMITTED] T7044.011

[GRAPHIC] [TIFF OMITTED] T7044.012

[GRAPHIC] [TIFF OMITTED] T7044.013

[GRAPHIC] [TIFF OMITTED] T7044.014

[GRAPHIC] [TIFF OMITTED] T7044.015

[GRAPHIC] [TIFF OMITTED] T7044.016

[GRAPHIC] [TIFF OMITTED] T7044.017

[GRAPHIC] [TIFF OMITTED] T7044.018

[GRAPHIC] [TIFF OMITTED] T7044.019

[GRAPHIC] [TIFF OMITTED] T7044.020

[GRAPHIC] [TIFF OMITTED] T7044.021

[GRAPHIC] [TIFF OMITTED] T7044.022

[GRAPHIC] [TIFF OMITTED] T7044.023

[GRAPHIC] [TIFF OMITTED] T7044.024

[GRAPHIC] [TIFF OMITTED] T7044.025

                                 <all>

</pre></body></html>
